No. 20In the

Supreme Court of the United States
LADONNA DEGAN, RIC TERRONES, JOHN
MCGUIRE, REED HIGGINS, MIKE GURLEY, LARRY
EDDINGTON, STEVEN MCBRIDE,
Petitioners,
v.
THE BOARD OF TRUSTEES OF THE DALLAS
POLICE AND FIRE PENSION SYSTEM,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
Caren Freedman
New Mexico State Bar
No. 7905
Durham, Pittard
& Spalding, LLP
505 Cerrillos Road, Suite A209
Santa Fe, New Mexico 87501
(505) 986-0600

Kirk L. Pittard
Texas State Bar No. 24010313
Counsel of Record
Thad D. Spalding
Texas State Bar No. 00791708
Rick Thompson
Texas State Bar No. 00788537
Durham, Pittard
& Spalding, LLP
David M. Feldman
223 West Jefferson Boulevard
Texas State Bar No. 06886700 Dallas, Texas 75208
Feldman & Feldman, P.C.
(214) 946-8000
3355 West Alabama Street,
kpittard@dpslawgroup.com
Suite 1220
Houston, Texas 77098
(713) 986-9471
Counsel for Petitioners
297275

i
QUESTIONS PRESENTED
Prior to 2017, retired Dallas police and firefighters had
the right to withdraw the earned and accrued retirement
funds deposited in their Deferred Retirement Option
Plan accounts in a lump sum at any time. In 2017, the
Texas Legislature amended the Dallas Pension Statute,
prohibiting retirees from accessing the corpus of these
funds and replacing the right to access with small annuity
payments over the expected lifetime of the retiree. The
questions presented are:
1. Whether a retiree’s ownership interest in earned
and accrued retirement funds deposited in a retirement
account is a cognizable property interest for purposes of
a Fifth Amendment Takings claim. The Fifth Circuit’s
conclusion that there is no cognizable property interest
is in direct conflict with the Texas Supreme Court’s
conclusion that the retirement funds at issue in this case
are a protected property interest.
2. When deciding a Takings Claim under the Fifth
Amendment to the United States Constitution where the
property at issue is money, whether courts should use a
per se analysis, a regulatory/ad hoc analysis, or some other
analysis that more appropriately takes into account the
unique nature of money ownership as distinct from the
ownership of real or personal property—an issue over
which federal courts of appeals are in conflict.
3. In light of this Court’s longstanding recognition of
the bundle of rights associated with property ownership,
whether prohibiting access to the corpus of earned and
accrued retirement funds violates the Takings Clause of
the Fifth Amendment to the United States Constitution.

ii
LIST OF PARTIES
Pursuant to United States Supreme Court Rule 14.1(b)
(i), the Petitioners notify the Court that the caption in this
case contains the names of all the parties.

iii
LIST OF PROCEEDINGS
• LaDonna Degan, Ric Terrones, John McGuire, Reed
Higgins, Mike Gurley, Larry Eddington, Steven
McBride v. The Board of Trustees of the Dallas Police
and Fire Pension System, Cause No. 3:17-CV-01596-N,
U.S. District Court for the Northern District of Texas.
Judgment entered March 14, 2018. (Pet. App. at D).
• LaDonna Degan, Ric Terrones, John McGuire, Reed
Higgins, Mike Gurley, Larry Eddington, Steven
McBride v. The Board of Trustees of the Dallas Police
and Fire Pension System, Cause No. 18-10423, U.S.
Fifth Circuit Court of Appeals. Court certified only the
Texas state constitutional issue to the Texas Supreme
Court on March 20, 2019. (Pet. App. at C).
• LaDonna Degan, Ric Terrones, John McGuire, Reed
Higgins, Mike Gurley, Larry Eddington, Steven
McBride v. The Board of Trustees of the Dallas Police
and Fire Pension System, Cause No. 19-0234, Texas
Supreme Court. Judgment entered on January 31, 2020.
(Pet. App. at B).
• LaDonna Degan, Ric Terrones, John McGuire, Reed
Higgins, Mike Gurley, Larry Eddington, Steven
McBride v. The Board of Trustees of the Dallas Police
and Fire Pension System, Cause No. 18-10423, U.S.
Fifth Circuit Court of Appeals. Judgment entered on
April 27, 2020. (Pet. App. at A).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF NOTIFICATION
REQUIRED BY RULE 29.4  . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
A. The Texas Legislature prohibits the
First Responders from accessing the
earned and accrued retirement funds in
their DROP accounts . . . . . . . . . . . . . . . . . . . . . . . 4
B. The First Responders asserted claims
under the Takings Clause of the Fifth
A me nd me nt t o t he Un it e d S t at e s
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

v
Table of Contents
Page
C. Procedure in this case . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . 8
I.

By determining that there is no cognizable
property interest that would support
a Takings Claim, the Fifth Circuit’s
decision conflicts with the Texas Supreme
Court’s determination that the First
R e sp onde r s’ r et i r ement f u nd s a r e
protected benefits under Texas law . . . . . . . . . . 10

II. There is a conf lict in this Court and
a m o n g t h e fe d e r a l c i r c u i t c o u r t s
regarding the proper Takings analysis
when the property at issue is money . . . . . . . . . 12
A. Per se taking . . . . . . . . . . . . . . . . . . . . . . . . . 12
B. Regulatory/ad hoc taking . . . . . . . . . . . . . . 12
C. Conflicting Takings standards . . . . . . . . . . 14
III. The Fifth Circuit’s opinion conflicts with
this Court’s Takings jurisprudence which
requires consideration of the effect of a
government’s actions on property rights  . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED APRIL 27, 2020 . . . . . . 1a
APPENDIX B — OPINION AND DISSENT
OF THE SUPREME COURT OF TEXAS,
DATED JANUARY 31, 2020 . . . . . . . . . . . . . . . . . . . 7a
A P P E N DI X C — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR T H E FI F T H CIRCU I T, FILED
MARCH 20, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35a
APPENDIX D — ORDER OF THE UNITED
STATES DISTRICT COURT, NORTHERN
DISTRICT OF TEXAS, DALLAS DIVISION,
FILED MARCH 14, 2018 . . . . . . . . . . . . . . . . . . . . . 44a
APPENDIX E —DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
FILED MAY 22, 2020 . . . . . . . . . . . . . . . . . . . . . . . . 73a
A PPENDI X F — QUOTED L A NGUAGE
FROM DA LL A S PENSION STATU TE
A N D FROM DA LL A S P OLICE A N D
FIRE PENSION PLAN . . . . . . . . . . . . . . . . . . . . . . 75a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Andrus v. Allard,
444 U.S. 51 (1979)  . . . . . . . . . . . . . . . . . . . . . . . 9, 19, 20
Asociación de Subscripción Conjunta del
Seguro de Responsabilidad Obligatorio v.
Galarza,
484 F.3d 1 (1st Cir. 2007) . . . . . . . . . . . . . . . . . . . . . . 14
Brown v. Legal Foundation of Washington,
538 U.S. 216 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Brown v. Stored Value Cards, Inc.,
953 F.3d 567 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 14
Cienega Gardens v. United States,
331 F.3d 1319 (Fed. Cir. 2003) . . . . . . . . . . . . . . . . . . 13
City of Dallas v. Trammell,
101 S.W.2d 1009 (Tex. 1937) . . . . . . . . . . . . . . . . . . . . 11
Colorado Springs Production Credit Assoc. v.
Farm Credit Admin.,
967 F.2d 648 (D.C. Cir. 1992) . . . . . . . . . . . . . . . .  15, 16
Connolly v. Pension Benefit Guaranty Corp.,
475 U.S. 211 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

viii
Cited Authorities
Page
Degan v. Board of Trustees of the Dallas Police
and Fire Pension Sys.,
594 S.W.3d 309 (Tex. 2020)  . . . . . . . . . . . . . .  4-5, 7, 10
Degan v. Board of Trustees of the Dallas Police
and Fire Pension Sys.,
956 F.3d 813 (5th Cir. 2020) . . . . . . . . . . . . . . . . passim
Fowler v. Guerin,
899 F.3d 1112 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . 15
Harold H. Huggins Realty, Inc. v. FNC, Inc.,
634 F.3d 787 (5th Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 4
Hodel v. Irving,
481 U.S. 704 (1987) . . . . . . . . . . . . . . . . . . . . . . . . 15, 19
Kaiser Aetna v. United States,
444 U.S. 164 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Klumb v. Houston Mun. Emps. Pension Sys.,
458 S.W.3d 1 (Tex. 2015) . . . . . . . . . . . . . . . . . . . . . . . 11
Lingle v. Chevron USA, Inc.,
544 U.S. 528 (2005) . . . . . . . . . . . . . . . . . . . . . . . . 12, 19
Loretto v. Teleprompter Manhattan CATV
Corp.,
458 U.S. 419 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

ix
Cited Authorities
Page
McIntyre v. Bayer,
339 F.3d 1097 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . 15
Penn Central Trans. Co. v. New York City,
438 U.S. 104 (1978)  . . . . . . . . . . . . . . . . . .  12, 13, 14, 17
Phillips v. Washington Legal Foundation,
524 U.S. 156 (1998)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Schneider v. California Dept. of Corrections,
345 F.3d 716 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 15
Southeast Arkansas Hospice v. Burwell,
815 F.3d 448 (8th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 15
St. Paul Mercury Ins. Co. v. Williamson,
224 F.3d 425 (5th Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 4
Tahoe-Sierra Preservation Council, Inc. v.
Tahoe Regional Planning Agency,
535 U.S. 302 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States v. Cress,
243 U.S. 316 (1917) . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
United States v. Dickenson,
331 U.S. 745 (1947)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. General Motors Corp.,
323 U.S. 373 (1945) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

x
Cited Authorities
Page
United States v. Sperry Corp.,
493 U.S. 52 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Van Houten v. City of Fort Worth,
827 F.3d 530 (5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 11
Washington Legal Foundation v. Massachusetts
Bar Foundation,
993 F.2d 962 (1st Cir. 1993)  . . . . . . . . . . . . . . . . . . . . 15
Washington Legal Foundation v. Texas Equal
Access to Justice Foundation,
293 F.3d 242(5th Cir. 2002)  . . . . . . . . . . . . . . . . . . . . 16
Yee v. City of Escondido,
503 U.S 519 (U.S. 1992)  . . . . . . . . . . . . . . . . . . . . . . . 16
Statutes
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. SEC. 1254(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. SEC. 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. SEC. 2403(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. SEC. 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

xi
Cited Authorities
Page
Tex. Const. art. XVI, Section 66  . . . . . . . . . . .  6, 7, 10, 11
Tex. Gov’t Code § 402.010(a-1) . . . . . . . . . . . . . . . . . . . . . 1
Tex. Gov’t Code § 810.001 . . . . . . . . . . . . . . . . . . . . . . . . . 4
Tex. Rev. Civ. Stat. Ann. art. 6243a-1 . . . . . . . . . . . . . . . 3
Tex. Rev. Civ. Stat. Ann. art. 6243a-1, § 6.14 (e) . . . . . . . 3
Tex. Rev. Civ. Stat. Ann. art. 6243a-1, § 6.14(d) . . . . . . . 5
James J. Holland, “Taking” Another Look
at IOLTA: Applying Loretto’s “Per Se”
Test to Government Exactions of Money,
39 Willamette L. Rev. 219 (2003)  . . . . . . . . . . . . . . .  17
Kristi L. Darnell, Note, Pennies from Heaven—
Why Washington Legal Foundation v. Legal
Foundation of Washington Violates the U.S.
Constitution, 77 Wash. L. Rev. 775 (2002) . . . . . . . .  17
Michael B. Kent, Jr., Symposium 2016: The Modern
Metropolis: Contemporary Legal Issues in Urban
Communities, 4 Belmont L. Rev. 1 (2017) . . . . .  16, 17
R e b e c c a R o g e r s , C o m m e n t , In t e r e s t ,
Pr incipal , and Conceptual Severance,
46 B.C. L. Rev. 863 (2005) . . . . . . . . . . . . . . . . . . . . . 16

1
OPINIONS BELOW
The Order of the District Court is found at Degan v. The
Board of Trustees of the Dallas Police and Fire Pension
System, No. 3:17-CV-01596-N, 2018 WL 4026373 (N.D.
Tex. Mar. 14, 2018). (Pet. App. at D).
The opinion of the Fifth Circuit Court of Appeals is found
at Degan v. The Board of Trustees of the Dallas Police
and Fire Pension System, 956 F.3d 813 (5th Cir. 2020)
(Pet. App. at C).
JURISDICTION
By a Writ of Certiorari under 28 U.S.C. SEC. 1254
(1), this Court has jurisdiction to review the decision of
the United States Court of Appeals for the Fifth Circuit
entered April 27 2020, Petition for Rehearing En Banc
denied May 22, 2020.
STATEMENT OF NOTIFICATION
REQUIRED BY RULE 29.4
This case challenges the constitutionality of a Texas
Statute. Neither the State of Texas nor any agency,
officer, or employee thereof is a party to this proceeding.
28 U.S.C. SEC. 2403(b) may apply. This Petition is being
served on the Attorney General of the State of Texas. In
accordance with 28 U.S.C. sec. 2403(b) and Tex. Gov’t
Code sec. 402.010 (a-1), Petitioners filed the required
Challenge to Constitutionality of State Statute form for
the Texas Attorney General’s Office with United States
Court of Appeals for the Fifth Circuit on June 25, 2020.
The notice of Challenge to the Constitutionality of State
Statute was forwarded by the Fifth Circuit Court to the
Texas Attorney General’s office on June 25, 2020.

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves the Takings Clause of the Fifth
Amendment to the United States Constitution:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any
person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
U.S. Const. amend. V (emphasis added).
Additionally, this case involves the 2017 amendments to
the Dallas Pension Statute which provides in relevant part:
Except as provided by Subsections (e-1) and
(l) of this section, the balance in the DROP
account of a member who terminated from
active service on or before September 1, 2017,
or who terminates from active service shall be
distributed to the member in the form of an
annuity, payable either monthly or annually at
the election of the member, by annuitizing the
amount credited to the DROP account over
the life expectancy of the member as of the
date of the annuitization using mortality tables

3
recommended by the pension system’s qualified
actuary. The annuity shall be distributed
beginning as promptly as administratively
feasible after the later of, as applicable:
(1) the date the member retires and is
granted a retirement pension; or
(2) September 1, 2017.
Tex. Rev. Civ. Stat. art. 6243a-1, sec. 6.14 (e) (Vernon 2017).
Furthermore, this case involves the following Pension Plan
Amendment that was enacted pursuant to the authority
provided by Tex. Rev. Civ. Stat. art 6243a-1 (Vernon 2017):
Effective as of June 8, 2017, all DROP withdrawal
requests that are on file with DPFP, including
any DROP withdrawal requests that were
submitted pursuant to Section 4 and 5 of the
Addendum as in effect prior to June 8, 2017,
shall be null and void except for those requests
filed pursuant to Section 6 in connection with
an unforeseeable emergency or for purposes of
a minimum annual distribution elected under
Section 7. All DROP withdrawal elections made
under Sections 6 and 7 will remain in place for
all subsequent DROP distributions under this
Addendum until revoked by the distributee in
writing.
STATEMENT OF THE CASE
LaDonna Degan, Ric Terrones, John McGuire,
Reed Higgins, Mike Gurley, Larry Eddington, and
Steve McBride are all retired Dallas police officers and

4
firefighters (collectively referred to herein as “First
Responders”). Each of the First Responders has earned
and accrued retirement funds in a Deferred Retirement
Option Plan (“DROP”) account maintained by the Dallas
Police and Fire Pension System (“Pension System”)
which is a public retirement system established pursuant
to Texas Government Code § 810.001. ROA.575-576.
The Pension System is governed by a board of trustees
(“Board”). ROA.546.
A. The Texas Legislature prohibits the First
Responders from accessing the earned and accrued
retirement funds in their DROP accounts.
The DROP accounts belonging to each of the First
Responders contained earned and accrued retirement
funds. ROA.582.1 On May 31, 2017, Texas Governor Greg
Abbott signed H.B. 3158 into law, making various changes
to the Dallas Pension Statute. ROA.580. The Board
adopted amendments to the Pension Plan reflecting the
changes made by H.B. 3158. ROA.581-582, .620-622.
Prior to H.B. 3158, the First Responders had a legal
right to access their earned and accrued retirement funds
in their DROP accounts and could withdraw their funds
in partial or lump sum amounts at any time. Degan v.
Board of Trustees of the Dallas Police and Fire Pension
1. In light of the standard of review concerning a 12(b)(6)
motion to dismiss, record citations to facts are to allegations
contained in the First Responders’ Complaint. These facts must
be taken as true, and the Court should indulge all reasonable
inferences in favor of the First Responders. Harold H. Huggins
Realty, Inc. v. FNC, Inc., 634 F.3d 787, 796 (5th Cir. 2011); St. Paul
Mercury Ins. Co. v. Williamson, 224 F.3d 425, 440 n.8 (5th Cir.
2000).

5
System, 594 S.W.3d 309, 311, 314, 316 (Tex. 2020); Act
of May 27, 1993, 73rd Leg. R.S., ch. 872, § 1, 1993 Tex.
Gen. Laws 3465 (amended 2017) (current version at Tex.
Rev. Civ. Stat. Ann. art. 6243a-1);2 ROA.1022-1023. As
a result of H.B. 3158, the Dallas Pension Statute now
prohibits the First Responders from accessing the corpus
of their retirement funds by prohibiting any withdrawal
of retirement funds from DROP accounts. 3 ROA.580-81.
Instead, H.B. 3158 annuitized the funds in each First
Responders’ DROP account to be paid out over the life
expectancy of the retiree (allowing the Pension System to
use the corpus of the First Responders’ retirement funds
to finance other pension priorities). ROA.580; Tex. Rev.
Civ. Stat. art. 6243a-1, sec. 6.14 (e) (Vernon 2017). Although
each of the First Responders had retirement funds in
their DROP accounts, because of the Legislature’s and
the Board’s actions, those accounts now show a zero
balance. It is this prohibition of access to the corpus of
their own retirement funds that is the basis for the First
Responders’ Takings claim.4
2. The citation to this statutory section prior to the 2017
amendments was Tex. Rev. Civ. Stat. Ann. art. 6243a-1, § 6.14(d)
(Vernon 2011).
3. H.B. 3158 provides only for certain limited withdrawals
allowed under the “financial hardship” provision, the standards
of which are to be adopted by the Board. ROA.580-581. Upon
information and belief, only one or two such limited withdrawals
have been approved since September 2018.
4. The Fifth Circuit concluded that the First Responders
failed to state a Takings claim because “they do not have a property
interest in the method of withdrawing DROP funds.” Degan v.
Board of Trustees of the Dallas Police and Fire Pension System,
956 F.3d 813, 814-15 (5th Cir. 2020). Yet, the First Responders have
never pled, briefed, or argued that they have a property interest in
a method. To the contrary, the First Responders have consistently

6
B. The First Responders asserted claims under the
Takings Clause of the Fifth Amendment to the
United States Constitution. 5
The First Responders alleged that the funds contained
in their DROP accounts are their personal property.
ROA.588. Under the Fifth Amendment to the United
States Constitution as applied to the states through the
Fourteenth Amendment, a governmental entity may not
take personal private property for public use without just
compensation. ROA.588. The First Responders brought
suit pursuant to 42 U.S.C. SEC. 1983, seeking injunctive
and declaratory relief, asserting that H.B. 3158 and the
amendments implemented pursuant to the legislation
violate the Fifth Amendment to the United States
Constitution. ROA.590. The district court had jurisdiction
over this matter pursuant to 28 U.S.C. SEC. 1331.
C. Procedure in this case.
The Board filed a 12(b)(6) motion to dismiss the
First Responders’ claims. ROA.884-1023. The First
Responders filed a Response, ROA.1465-1495, and the
Board filed a Reply. ROA.1496-1510. On March 14, 2018,
pled and argued that they have a property interest in the corpus of
their retirement funds held in their DROP accounts. By concluding
that the First Responders seek to protect a property interest in a
method, the Fifth Circuit fundamentally changed the claims the
First Responders actually made and thus altered the Takings
analysis conducted by the court.
5. The First Responders also asserted a claim under Article
XVI, Section 66 of the Texas Constitution which prohibits the
reduction or impairment of certain retirement benefits that have
accrued. ROA.589. The claims under the Texas Constitution are
not the subject of this Petition.

7
the district court granted the Board’s motion to dismiss,
ROA.1667-1692, and entered a final judgment the same
day. ROA.1693. The First Responders filed a notice of
appeal on April 5, 2018. ROA.1694-1696.
The Fifth Circuit certified to the Texas Supreme
Court issues concerning the First Responders’ claims
under the Texas Constitution.6 The Texas Supreme Court
concluded that the First Responders’ retirement funds in
their DROP accounts are protected benefits under Texas
law. Degan v. Board of Trustees of the Dallas Police
and Fire Pension Sys., 594 S.W.3d 309, 312 (majority)
(concluding that the First Responders’ DROP funds
are a constitutionally protected benefit under Texas
law), 319 (dissent) (same) (Tex. 2020). Nevertheless, the
Texas Supreme Court ultimately concluded that H.B.
3158 did not violate Article XVI, Section 66 of the Texas
Constitution and returned the case to the Fifth Circuit
for a determination regarding whether H.B. 3158 violated
the Fifth Amendment to the United States Constitution.
Without hearing oral argument, the Fifth Circuit
affirmed the district court’s dismissal of the First
Responders’ Takings Claim under the United States
Constitution. The Fifth Circuit concluded that there
was no cognizable property interest that would support
a Takings Claim under the Fifth Amendment. Degan v.
Board of Trustees of the Dallas Police and Fire Pension
System, 956 F.3d 813, 814-15 (5th Cir. 2020). The Fifth
Circuit also concluded that because the First Responders
will receive annuity payments and the Texas Legislature
6. Dissimilar to the Fifth Amendment to the United States
Constitution, Article XVI, § 66 of the Texas Constitution prohibits
the reduction or impairment of certain public retirement benefits.

8
and the Board were attempting to protect the pension
fund, there had been no violation of the Takings Clause.
Id. at 815-16.
REASONS FOR GRANTING THE PETITION
Under a Fifth Amendment Takings analysis, courts
look to independent sources of law, such as state law, to
determine if there is a cognizable property interest that is
protected by the Fifth Amendment. The First Responders
alleged that they had a property interest in the retirement
funds in their DROP accounts. Indeed, in answering a
certified question in this case, the Texas Supreme Court
concluded that the retirement funds are protected under
the Texas Constitution. Yet, the Fifth Circuit recast the
alleged property interest as the “method of withdrawal.”
The First Responders have always pled, briefed, and
argued that the property interest at issue in this case is
the retirement funds in their DROP accounts. Therefore,
the Fifth Circuit’s reframing of the interest and conclusion
that there is no cognizable property interest, creates a
direct conflict with the Texas Supreme Court concerning
whether a property right exists that is protected by the
Fifth Amendment.
Additionally, Fifth Amendment Takings law has
developed with regard to the proper standards for
analyzing the taking of real and personal property.
However, due to a split in the federal circuit courts, no
clear standard has emerged concerning a Takings analysis
when the property at issue is money.
Money in an account is dissimilar to real property
that can be physically occupied or personal property over

9
which one can exercise physical dominion and control.
Money in an account is not paper bills that can literally
be confiscated, but is instead represented by numbers
on an account statement. Traditional Takings analyses
that concern the physical occupation of or dominion over
property ill equip courts to analyze Takings claims when
the property right infringed is the right to access money
in an account.
Money is ubiquitous and a government’s need for
money to fund public projects is a never-ending balance
of taxing and spending priorities. Obtaining money for
public use through non-revenue methods raises important
constitutional issues. There is a big difference between
taxing citizens for the public fisc and passing laws that
take away access to earned and accrued money in order
to use that money for other pension priorities. Because
most citizens in the country have an account of some sort
that contains earned and accrued money, it is important
for this Court to resolve the conflict among the circuit
courts concerning the appropriate standard for analyzing
Takings claims involving money.
Finally, in the Takings context, this Court has
emphasized the importance of considering government
actions on the bundle of rights associated with property
ownership—the right to possess, use, transfer, devise, and
exclude others. Despite the fact that every strand of the
bundle of rights the First Responders once had in their
retirement funds has been eviscerated by H.B. 3158, the
Fifth Circuit nevertheless concluded that no Taking has
occurred. This conclusion is in direct conflict with this
Court’s Takings jurisprudence and with Andrus v. Allard,
444 U.S. 51, 65-66 (1979), in particular.

10
I.

By determining that there is no cognizable
property interest that would support a Takings
Claim, the Fifth Circuit’s decision conflicts with
the Texas Supreme Court’s determination that the
First Responders’ retirement funds are protected
benefits under Texas law.

The first critical question in a Takings analysis is
whether there is a cognizable property interest that is
the subject of the government action. The existence of a
property interest is determined by reference to “existing
rules or understandings that stem from an independent
source such as state law.” Phillips v. Washington Legal
Foundation, 524 U.S. 156, 163-64 (1998).
The property at issue in this case is the corpus of the
retirement funds the First Responders earned and that
had accrued and been deposited in their DROP retirement
accounts. In Degan v. Board of Trustees of the Dallas
Police and Fire Pension Sys., 594 S.W.3d 309 (Tex. 2020),
the Texas Supreme Court concluded that these funds
are constitutionally protected benefits under Texas law.
Degan, 594 S.W.3d at 312 (majority), 319 (dissent), (citing
Tex. Const. art. XVI, § 66). However, despite the First
Responders consistently pleading, briefing, and arguing
that the property at issue in this case is the corpus
of the retirement funds in their DROP accounts, the
Fifth Circuit recast the alleged property interest as the
“method of withdrawing DROP funds.” Degan v. Board of
Trustees of the Dallas Police and Fire Pension System,
956 F.3d 813, 814-15 (5th Cir. 2020). This is equivalent to
concluding that the method of accessing real property (by
road or air) is the alleged property interest as opposed
to the real property itself. After redefining the alleged

11
property interest, the Fifth Circuit then concluded that
the First Responders have no property interest that would
support a Takings claim. Id.
In addition to redefining the actual property interest
at issue in this case, in reaching this conclusion, the
Fifth Circuit relied upon a series of cases that predated
the Texas Supreme Court’s opinion in Degan and which
concerned distinct law related to pension benefits in the
City of Houston, while the pension benefits in the City of
Dallas are governed by completely different law.7 Degan,
956 F.3d at 815 (citing Van Houten v. City of Fort Worth,
827 F.3d 530, 540 (5th Cir. 2016), which relied upon City
of Dallas v. Trammell, 101 S.W.2d 1009, 1014 (Tex. 1937),
superseded by constitutional amendment, Tex. Const.
art. XVI, Section 66). Consequently, the Fifth Circuit’s
determination that there is no property interest in this
case that would support a Takings claim cannot be
reconciled with this Court’s precedent requiring reference
to state law to determine whether a cognizable property
interest exists. The Fifth Circuit’s conclusion also directly
conflicts with the Texas Supreme Court’s determination
that the First Responders have a constitutionally
protected property interest in the retirement funds in
their DROP accounts.

7. Klumb v. Houston Mun. Emps. Pension Sys., 458 S.W.3d
1, at 16, 16 n.10 (Tex. 2015) (noting these distinct and different
bodies of law that govern pension benefits in Texas).

12
II. There is a conflict in this Court and among the
federal circuit courts regarding the proper Takings
analysis when the property at issue is money.
A.

Per se taking.

In the context of Fifth Amendment Takings law,
two distinct analyses have emerged. This Court has
articulated the per se analysis, which considers whether
there is a direct government appropriation or physical
invasion of private property. See Lingle v. Chevron USA,
Inc., 544 U.S. 528, 537 (2005). A regulatory action can
also constitute a per se taking where the government
requires an owner to suffer a permanent physical invasion
of property, however minor, or a regulatory action that
completely deprives an owner of all economically beneficial
use of his property. Id. at 538.
B. Regulatory/ad hoc taking.
This Court has also articulated a regulatory/ad
hoc analysis which considers whether government
regulation of private property is so onerous that its effect
is tantamount to a direct appropriation or ouster, such
that a regulatory taking is compensable under the Fifth
Amendment. Id. at 537. This Court has acknowledged
that it had been “unable to develop any ‘set formula’” for
evaluating regulatory takings claims, but it did identify
“‘several factors that have particular significance.’”
Lingle, 544 U.S. at 538 (quoting Penn Central Trans.
Co. v. New York City, 438 U.S. 104, 124 (1978)). In Penn
Central, this Court focused on three factors: (1) “[t]he
economic impact of the regulation on the claimant,” (2)
“the extent to which the regulation has interfered with

13
distinct investment-backed expectations,” and (3) “the
‘character of the governmental action’—for instance
whether it amounts to a physical invasion or instead
merely affects property interests through ‘some public
program adjusting the benefits and burdens of economic
life to promote the common good.’” Id. at 538-39. Each of
these inquiries “aims to identify regulatory actions that
are functionally equivalent to the classic taking in which
government directly appropriates private property or
ousts the owner from his domain.” Id. at 539. Thus, each
test “focuses directly upon the severity of the burden that
government imposes upon private property rights.” Id.
This “inquiry turns in large part, albeit not exclusively,
upon the magnitude of a regulation’s economic impact and
the degree to which it interferes with legitimate property
interests.” Id. at 540. Neither complete dispossession
nor divesting of title is required for a regulatory taking.
Cienega Gardens v. United States, 331 F.3d 1319, 1339
(Fed. Cir. 2003). Furthermore, “a taking need not be
permanent to be compensable.” Id. at 1339.
“Property is taken in the constitutional sense when
inroads are made upon an owner’s use of it to an extent
that, as between private parties, a servitude has been
acquired.” Penn Cent., 438 U.S. at 146 (quoting United
States v. Dickenson, 331 U.S. 745, 748 (1947)). “[E]ven
where a destruction of property rights would not otherwise
constitute a taking, the inability of the owner to make a
reasonable return on his property requires compensation
under the Fifth Amendment. But the converse is not true.
A taking does not become a noncompensable exercise
of police power simply because the government in its
grace allows the owner to make some ‘reasonable use’
of his property. ‘[I]t is the character of the invasion, not

14
the amount of the damages resulting from it, so long as
the damage is substantial, that determines the question
whether it is a taking.’” Penn Cent., 438 U.S. at 149
(quoting United States v. Cress, 243 U.S. 316, 328 (1917)
(citations omitted)).
C.

Conflicting Takings standards.

When the property at issue is money, in one case this
Court used a per se analysis and in another case dissenting
justices on this Court used a regulatory/ad hoc analysis.
Brown v. Legal Foundation of Washington, 538 U.S. 216,
235 (2003) (discussing money in terms of a per se takings
analysis); Phillips v. Washington Legal Foundation, 524
U.S. 156, 172, 176 (1998) (majority not discussing what the
proper standard should be and four dissenting justices
discussing money in terms of an ad hoc takings analysis)
(Souter, J., joined by JJ. Stevens, Ginsburg, Breyer).
The Circuits are also in conflict over what the proper
analysis is when money is the property at issue. The
First Circuit has used a per se analysis in a Takings
case concerning interest generated from insurance
premiums. Asociación de Subscripción Conjunta del
Seguro de Responsabilidad Obligatorio v. Galarza, 484
F.3d 1, 27, 29-30, 32-33 (1st Cir. 2007) (plaintiff sufficiently
pled the taking of a constitutionally protected property
interest alleging the government physically appropriated
insurance premiums resulting in monetary interest lost
as a result of the withholding of the premiums). The Ninth
Circuit has also used a per se analysis concerning the
taking of money. In Brown v. Stored Value Cards, Inc.,
953 F.3d 567 (9th Cir. 2020), the court reversed a summary
judgment for the defendant under a per se takings analysis

15
concerning the issuance of a debit card to a released
inmate in lieu of the cash that was confiscated from her
at the time of the arrest, where service fees reduced the
amount of money on the card. Id. at 569, 570-71, 575-76.
In Schneider v. California Dept. of Corrections, 345 F.3d
716, 720 (9th Cir. 2003), the court used a per se analysis
concerning the state’s failure to pay interest on state
prison inmates’ trust accounts that contained inmates’
personal funds. See also McIntyre v. Bayer, 339 F.3d 1097
(9th Cir. 2003) (using a per se analysis regarding taking of
interest earned on funds in inmate trust account); Fowler
v. Guerin, 899 F.3d 1112, 1117 (9th Cir. 2018) (using a per
se analysis concerning the Washington State Department
of Retirement Systems withholding of interest accrued on
teacher retirement accounts).
However, in Southeast Arkansas Hospice v. Burwell,
815 F.3d 448, 450 (8th Cir. 2016), the Eight Circuit used a
regulatory/ad hoc analysis concerning an alleged taking
of refunded Medicare reimbursement payments based
on a statutory repayment cap. Likewise, in Washington
Legal Foundation v. Massachusetts Bar Foundation, 993
F.2d 962, 974, 976 (1st Cir. 1993), the First Circuit used a
regulatory/ad hoc analysis concerning interest on lawyers’
trust accounts. The District of Columbia Circuit has even
relied upon this Court’s precedent to suggest that a per
se analysis is not appropriate for Takings claims related
to money. In Colorado Springs Production Credit Assoc.
v. Farm Credit Admin., 967 F.2d 648 (D.C. Cir. 1992), the
court stated “[t]hat all permanent and total deprivations of
money do not fall in [a per se analysis] is clear; the Supreme
Court has several times analyzed such deprivations as
other than per se takings.” Id. at 657 (citing United States
v. Sperry Corp., 493 U.S. 52, 62 (1989); Hodel v. Irving,

16
481 U.S. 704, 714-17 (1987); Connolly v. Pension Benefit
Guaranty Corp., 475 U.S. 211, 222-23 (1986)). The D.C.
Circuit further stated that “the [Supreme] Court’s recent
decision in Yee v. City of Escondido, 503 U.S 519, 112 S.
Ct. 1522, 118 L. Ed. 2d 153 (U.S. 1992) may well limit, if
only implicitly, the category of per se takings to ‘unwanted
physical occupation[s]’ of . . . property.” Colorado Springs,
967 F.2d at 657 (citing Yee, 112 S. Ct. at 1531).
Not only is there confusion among the circuit courts
as to which standard should be used, but there is also
disagreement within the Fifth Circuit concerning whether
either standard is appropriate when the property at
issue is money or whether some other standard should
apply. In fact six Fifth Circuit judges have noted that
a different analysis altogether is required. Washington
Legal Foundation v. Texas Equal Access to Justice
Foundation, 293 F.3d 242, 249 (5th Cir. 2002) (Wiener,
J., dissenting, joined by JJ. King, Benavides, Stewart,
Parker and Dennis noting that the few cases concerning
the Takings Clause in the context of money, while not
wholly on point, confirm that “when the property at issue
is money, a distinct analysis—separate from per se or
ad hoc, or any other method used for real and tangible
personal property—is required.”).
This circuit split, evident conflict in the law, and the
importance of clarifying the relevant standard has also
been the subject of numerous law review articles. See,
e.g., Michael B. Kent, Jr., Symposium 2016: The Modern
Metropolis: Contemporary Legal Issues in Urban
Communities, 4 Belmont L. Rev. 1, 16-25 (2017); Rebecca
Rogers, Comment, Interest, Principal, and Conceptual
Severance, 46 B.C. L. Rev. 863, 870-90 (2005); James J.

17
Holland, “Taking” Another Look at IOLTA: Applying
Loretto’s “Per Se” Test to Government Exactions of
Money, 39 Willamette L. Rev. 219, 224-44 (2003); Kristi L.
Darnell, Note, Pennies from Heaven—Why Washington
Legal Foundation v. Legal Foundation of Washington
Violates the U.S. Constitution, 77 Wash. L. Rev. 775,
785-89, 802-04 (2002).
Resolving the analytical standard is critical for
Takings jurisprudence. For in this case, the Fifth Circuit
concluded that “the situation here is not like that of a
government occupying a property without compensation.”
Degan v. Board of Trustees of the Dallas Police and Fire
Pension System, 956 F.3d 813, 815 (5th Cir. 2020). Thus,
the court of appeals analyzed the Takings claim under
a per se analysis as if the money at issue was in paper
bills which someone could physically occupy. This is a
problematic approach because large sums of money are
generally not physically held—rather large sums of money
are deposited in accounts and represented by numbers on
an account balance sheet. Thus, under the Fifth Circuit’s
per se analysis, there could never be a constitutional
Taking of money that is deposited in an account because
numbers on an account balance sheet cannot be invaded or
physically occupied. See Kent, supra, at 23. Nevertheless,
an appropriation of money would appear to be synonymous
with an invasion or occupation. See id. This demonstrates
why a traditional per se analysis requiring a physical
invasion or occupation, while it could be synonymously
applied, is awkward when considering the taking of money.
Likewise, in considering the Penn Central factors
associated with a regulatory/ad hoc analysis, the Fifth
Circuit concluded that all factors weigh against a

18
compensable Taking. Degan, 956 F.3d at 815. Yet, instead
of actually considering the economic impact to the First
Responders by denying them access to the corpus of their
funds, the Fifth Circuit summarily concluded that there
would be no adverse economic impact because the First
Responders would receive annuity payments. Id. at 815. 8
Furthermore, despite evidence in the record setting forth
the various investments the First Responders intended to
make with their retirement funds (i.e. paying for children’s
and grandchildren’s education, home repairs, necessary
living expenses), the Fifth Circuit concluded that the fact
the First Responders can no longer receive lump sum
distributions and now may only receive lifetime annuity
payments “does not support the conclusion that their
investment-backed expectations were ‘taken.’” Id. at 81516. Finally, in considering the character of the government
action element, the Fifth Circuit once again reverted to an
inapropos analogy concerning real and personal property:
“there is no invasion of real estate or appropriation
of physical property.” Id. at 816. These conclusions
reached by the Fifth Circuit in order to conclude that no
compensable Taking has occurred demonstrate why the
regulatory/ad hoc analysis is also ill suited for a Takings
case involving money in a retirement account.

8. The following sentence constitutes the Fifth Circuit’s
entire analysis of the “economic impact” element: “Plaintiffs will
continue to receive payments to compensate them for the DROP
accounts.” Id. at 815.

19
III. The Fifth Circuit’s opinion conflicts with this
Court’s Takings jurisprudence which requires
consideration of the effect of a government’s
actions on property rights
This Court has articulated a “bundle of rights”
associated with property ownership. Those rights include
the right to possess, use, transfer, devise, and exclude
others. Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 539
(2005); Hodel v. Irving, 481 U.S. 704, 716 (1987); Loretto
v. Teleprompter Manhattan CATV Corp., 458 U.S. 419,
433-34 (1982) (“[t]he power to exclude has traditionally
been considered one of the most treasured strands in
an owner’s bundle of property rights”); Kaiser Aetna v.
United States, 444 U.S. 164, 176 (1979); United States v.
General Motors Corp., 323 U.S. 373, 378 (1945). In the
context of a Takings analysis, this Court has noted that
“where an owner possesses a full ‘bundle’ of property
rights, the destruction of one ‘strand’ of the bundle is not a
taking.” Tahoe-Sierra Preservation Council, Inc. v. Tahoe
Regional Planning Agency, 535 U.S. 302, 327 (2002)
(quoting Andrus v. Allard, 444 U.S. 51, 65-66 (1979)).
In fact, in concluding that a Taking had not occurred in
Andrus, this Court noted that “it is crucial that appellees
retain the rights to possess and transport their property,
and to donate or devise the [property].” Andrus, 444 U.S.
at 66. Under Andrus, the converse would also be true: if
the claimant no longer had the right to possess, transport,
donate, or devise, a Taking would have occurred.
Citing Andrus, the Fifth Circuit concluded that
“merely limiting an individual’s access to a property
interest does not constitute a taking.” Degan, 956 F.3d at
815 n.1 (citing Andrus v. Allard, 444 U.S. 51, 65-66 (1979)).

20
While this might be true if other strands of property
rights remained intact, this statement by the Fifth Circuit
cannot be squared with this Court’s recognition in Andrus
that the retention of some property rights (i.e. the right
to possess, transport, donate, and devise) is crucial to the
determination that no Taking has occurred. Andrus, 444
U.S. at 66.
In the present case, as a result of H.B. 3158, the First
Responders’ access to the corpus of their own retirement
funds is not merely limited; their access is completely
prohibited. It is also undisputed that for each First
Responders’ lifetime, now they can no longer possess,
use, transport, devise, or exclude others from using the
corpus of the funds in their DROP accounts. Despite every
strand of the bundle of rights having been eviscerated
by H.B. 3158, the Fifth Circuit nevertheless concluded
that no Taking has occurred. This conclusion is in direct
conflict with this Court’s Takings jurisprudence and with
Andrus in particular.
CONCLUSION
This case presents the Court with important issues
that must be resolved concerning a Fifth Amendment
Takings analysis involving money. A conflict exists
between the Fifth Circuit’s opinion and the Texas
Supreme Court regarding a fundamental issue of federal
law—what constitutes a property interest for Fifth
Amendment purposes. Additionally, a circuit split and
conflicting analyses by this Court warrant resolution to
clarify how money is to be treated in a Takings analysis.
Finally, as governments around the country continue
to make decisions concerning how to compensate public

21
retirees, it is important for this Court to determine
whether prohibiting access to earned and accrued
retirement funds presents a cognizable Takings claim
under the Fifth Amendment.
Respectfully submitted,
Caren Freedman
Kirk L. Pittard
New Mexico State Bar
Texas State Bar No. 24010313
No. 7905
Counsel of Record
Durham, Pittard
Thad D. Spalding
& Spalding, LLP
Texas State Bar No. 00791708
505 Cerrillos Road, Suite A209 Rick Thompson
Santa Fe, New Mexico 87501
Texas State Bar No. 00788537
(505) 986-0600
Durham, Pittard
& Spalding, LLP
David M. Feldman
223 West Jefferson Boulevard
Texas State Bar No. 06886700 Dallas, Texas 75208
Feldman & Feldman, P.C.
(214) 946-8000
3355 West Alabama Street,
kpittard@dpslawgroup.com
Suite 1220
Houston, Texas 77098
(713) 986-9471
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED APRIL 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10423
LADONNA DEGAN; RIC TERRONES; JOHN
MCGUIRE; REED HIGGINS; MIKE GURLEY;
LARRY EDDINGTON; STEVEN MCBRIDE,
Plaintiffs-Appellants,
v.
THE BOARD OF TRUSTEES OF THE DALLAS
POLICE AND FIRE PENSION SYSTEM,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC. No. 3:17-CV-1596.
April 27, 2020, Filed
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.
HAYNES, Circuit Judge:

2a
Appendix A
Several retired City of Dallas police officers and
firefighters (collectively, “Plaintiffs”) sued the Board
of Trustees of Dallas Police and Fire Pension System
(the “Board”) over changes to their pension fund they
contend violate the United States and Texas Constitutions.
Plaintiffs alleged that limiting their ability to withdraw
from their Deferred Retirement Option Plan (“DROP”)
funds constituted an unlawful taking under the Fifth
Amendment of the United States Constitution and violated
article XVI, section 66, of the Texas Constitution (“Section
66”), which prohibits reducing or otherwise impairing a
person’s accrued service retirement benefits.
Concluding that this case involved important and
determinative questions of Texas law, we certified two
questions to the Supreme Court of Texas regarding
Plaintiffs’ Texas constitutional claim. Degan v. Bd. of
Trs. of Dall. Police & Fire Pension Sys., 766 F. App’x
16, 17 (5th Cir. 2019) (per curiam). Specifically, we asked
(1) whether the method of withdrawing DROP funds is a
service retirement benefit protected under Section 66, and
(2) whether the Board’s decision to change the withdrawal
method for Plaintiffs’ DROP funds violates Section 66. Id.
at 20. We stayed Plaintiffs’ federal claim, concluding that
their takings claim depended on how the Supreme Court
of Texas answered the certified questions. Id. at 17, 20.
The Supreme Court of Texas accepted our certification
and recently issued an opinion answering the questions.
Degan v. Bd. of Trs. of Dall. Police & Fire Pension Sys.,
594 S.W.3d 309 (Tex. 2020). It held that (1) although
Plaintiffs’ DROP funds are service retirement benefits

3a
Appendix A
protected by Section 66, the method of withdrawing DROP
funds is not, and (2) the Board’s decision to change the
withdrawal method of Plaintiffs’ DROP accounts did not
violate Section 66. Id. at 312, 317. We ordered supplemental
briefing by the parties on whether any further issues
remain to be resolved by this court. The parties agree
that these answers dispose of Plaintiffs’ state law claim,
but they disagree as to the resolution of the remaining
federal constitutional claim. Plaintiffs argue that they
still have a valid claim, arguing both a per se taking and
a regulatory taking.
We hold that Plaintiffs failed to state a takings
claim because they do not have a property interest in
the method of withdrawing DROP funds, and thus we
affirm the district court’s dismissal of their takings
claim. “The Fifth Amendment . . . provides that ‘private
property’ shall not ‘be taken for public use, without just
compensation.’” Phillips v. Wash. Legal Found., 524
U.S. 156, 163-64, 118 S. Ct. 1925, 141 L. Ed. 2d 174 (1998)
(quoting U.S. Const. amend. V). Thus, to allege a takings
claim, Plaintiffs must have a property interest in their
method of withdrawing DROP funds. “[T]he existence of
a property interest is determined by reference to existing
rules or understandings that stem from an independent
source such as state law.” Id. at 164 (internal quotation
marks and citation omitted); see also Van Houten v. City of
Fort Worth, 827 F.3d 530, 540 (5th Cir. 2016) (holding that
“the right to public pension benefits in Texas is subject
to legislative power” and “[l]egislative reduction of such
benefits therefore cannot be the basis of a . . . takings
clause challenge”).

4a
Appendix A
Here, Texas law determines whether Plaintiffs have
a protected right to their method of withdrawal, and the
Supreme Court of Texas has held that Plaintiffs have
no such protected right. Degan, 594 S.W.3d at 312, 317.
Because Plaintiffs have no property interest in the method
of withdrawing DROP funds, they failed to state a takings
claim.1 Degan makes clear that the situation here is not
like that of a government occupying a property without
compensation. See, e.g., Tahoe-Sierra Pres. Council, Inc.
v. Tahoe Reg’l Planning Agency, 535 U.S. 302, 322, 122
S. Ct. 1465, 152 L. Ed. 2d 517 (2002) (citing United States
v. Gen. Motors Corp., 323 U.S. 373, 65 S. Ct. 357, 89 L.
Ed. 311 (1945), and United States v. Petty Motor Co., 327
U.S. 372, 66 S. Ct. 596, 90 L. Ed. 729 (1946)). 2 Thus, there
is no per se taking.

1. Plaintiffs contend that because they have a property
interest in their accrued DROP funds, this property interest
extends to having the right to withdraw from them. But Plaintiffs
cite no authority for support; to the contrary, merely limiting an
individual’s access to a property interest does not constitute a
taking. See Andrus v. Allard, 444 U.S. 51, 65-66, 100 S. Ct. 318, 62
L. Ed. 2d 210 (1979) (holding that the government’s restriction on
an individual’s ability to dispose of his or her private property did
not amount to a taking because the individual retained other rights
associated with his or her property); Matagorda Cty. v. Russell
Law, 19 F.3d 215, 224 (5th Cir. 1994) (holding that the “mere delay
in exercising a property right” did not constitute a taking).
2. By contrast, temporary restrictions on what an individual
may do with their property—but where the government does not
appropriate it—are not subject to the same rule. See Tahoe-Sierra
Pres. Council, 535 U.S. at 323-24.

5a
Appendix A
Having concluded that this withdrawal is not a per
se taking, we briefly address the regulatory taking
arguments Plaintiffs make. “A regulatory restriction
on use that does not entirely deprive an owner of
property rights may not be a taking under Penn Central
[Transportation Co. v. City of New York, 438 U.S. 104,
98 S. Ct. 2646, 57 L. Ed. 2d 631 (1978)].” Horne v. Dep’t of
Agric., 576 U.S. 351, 135 S. Ct. 2419, 2429, 192 L. Ed. 2d
388 (2015). Penn Central provided three factors: “(1) the
economic impact of the regulation on the claimant; (2) the
extent to which the regulation has interfered with distinct
investment-backed expectations; and (3) the character of
the governmental action.” Murr v. Wisconsin, 137 S. Ct.
1933, 1937, 198 L. Ed. 2d 497 (2017). All factors weigh
against the Plaintiffs.
Plaintiffs will continue to receive payments to
compensate them for the DROP accounts. Further, at the
time the Plaintiffs chose their method of withdrawal from
their DROP accounts, they had only three options: they
could withdraw the funds as (A) a single-sum distribution;
(B) a monthly annuity based on the member’s life; or
(C) substantially equal monthly or annual payments
designated by the member. See Tex. Rev. Civ. Stat. A nn.
art. 6243a-1, § 6.14(d)(1)-(3) (2011). They are now subject
to option B, but that does not support the conclusion that
their investment-backed expectations were “taken.”
As far as governmental action, this is not a traditional
takings claim; there is no invasion of real estate or
appropriation of physical property. See Penn Cent., 438
U.S. at 124 (concluding that “[a] ‘taking’ may more readily

6a
Appendix A
be found when the interference with property can be
characterized as a physical invasion”). Texas and the
Board are working to save a pension fund by modifying
its mechanics. The goal is to protect the pension fund,
including the Plaintiffs’ funds. Thus, this factor also
weighs against the Plaintiffs. All told, they have not
pleaded a regulatory taking.
We AFFIRM the district court’s dismissal for failure
to state a claim.

7a
B AND DISSENT
APPENDIX B —Appendix
OPINION
OF THE SUPREME COURT OF TEXAS,
DATED JANUARY 31, 2020
IN THE SUPREME COURT OF TEXAS
NO. 19-0234
LADONNA DEGAN, RIC TERRONES, JOHN
MCGUIRE, REED HIGGINS, MIKE GURLEY,
LARRY EDDINGTON, AND STEVEN MCBRIDE,
Appellants,
v.
THE BOARD OF TRUSTEES OF THE DALLAS
POLICE AND FIRE PENSION SYSTEM,
Appellee.
On Certified Questions from the United States
Court of A ppeals for the Fifth Circuit.
Argued September 17, 2019
Justice Devine delivered the opinion of the Court, in
which Chief Justice Hecht, Justice Lehrmann, Justice
Blacklock, Justice Busby, and Justice Bland joined.
Justice Boyd filed a dissenting opinion, in which
Justice Green joined.
Justice Guzman did not participate in the decision.

8a
Appendix B
In this case, we consider two questions of Texas law
certified from the United States Court of Appeals for
the Fifth Circuit. Such questions are authorized by our
Constitution and provided for in our appellate rules. Tex.
Const. art. V, § 3-c; Tex. R. A pp. P. 58. The questions
concern whether changes made by the Texas Legislature
in 2017 to Deferred Retirement Option Plans violate a
state constitutional provision that prohibits the reduction
or impairment of certain accrued retirement benefits.
See Tex. Const. art. XVI, § 66. We consider the certified
questions below and conclude that the 2017 legislative
reforms here do not violate the Constitution.
I
The Dallas Police and Fire Pension System is a public
pension fund that provides comprehensive retirement,
death, and disability benefits for approximately 9,300
active and retired City of Dallas police officers, firefighters,
and their qualified survivors. Like many states, the State
of Texas has created a series of defined benefit plans for
government employees. Pension systems for police and
firefighters in cities like Dallas are largely controlled by
the Texas Legislature through Article 6243a-1. See Tex.
Rev. Civ. Stat. A nn. art. 6243a-1 (Supp. 2019). Under that
statute, a local Board of Trustees, selected by the mayor
in consultation with the city council and by the members
and pensioners of the pension system, administers the
pension system under a compliant plan document. Id. art.
6243a-1, § 3.01(a), (b).
Under the plan, individuals become members of the
pension system once they commence training at the police

9a
Appendix B
or firefighter academy. The member and the city contribute
to the member’s account during the member’s active
service. Section 6 of the plan enumerates four general
categories of benefits: “retirement pension” options,
“disability benefits,” “death benefits,” and a “Deferred
Retirement Option Plan” (commonly referred to by its
initials DROP). See generally id. art. 6243a-1, §§ 6.01–.14.
The pension system began offering DROP accounts in
1993 as an incentive to retain experienced police officers
and firefighters after they attained eligibility to retire.
Before DROP’s existence, an active police officer or
firefighter who became eligible to retire had two options
under the pension system: The member could remain on
the job and continue to grow his or her pension under the
system’s pension formula, or the member could retire and
begin drawing his or her accrued pension in the form of
a monthly annuity payment. DROP introduced a third
option: A member could freeze his or her retirement
benefit and continue working, receiving both a salary and
an annuity payment from his or her retirement account.
While the member electing DROP continues on the
job, the monthly annuity is paid into the member’s DROP
account. Once the member has left active service, future
annuity payments are redirected to the member, who is
also now eligible to withdraw funds from his or her DROP
account. DROP accounts initially collected an attractive
interest rate and provided the member several options
for withdrawing these funds at the end of active service.
Under these options, the member could elect a lumpsum distribution, an annuity based on the member’s life

10a
Appendix B
expectancy, or disbursement based on monthly or annual
payments designated by the member. See Act of June 18,
1993, 73rd Leg., R.S., ch. 872, § 1, 1993 Tex. Gen. Laws
3432, 3465-66 (formerly Tex. Rev. Civ. Stat. A nn. art.
6243a-1, § 6.14(d)(1)–(3) (1993)).
DROP accounts became very popular. Eventually,
the amount of money drawn into these accounts, together
with a member’s right to elect a lump-sum distribution
on leaving active service, threatened the liquidity and
stability of the pension system. These concerns, in turn,
motivated the Legislature to pass House Bill 3158 in
2017. This Bill amended the applicable pension statute
to eliminate lump-sum payments and to permit only the
annuitized option for DROP account withdrawals. Tex.
Rev. Civ. Stat. A nn. art. 6243a-1, § 6.14(e); see Act of May
31, 2017, 85th Leg., R.S., ch. 318, § 1.42, 2017 Tex. Gen.
Laws 639, 696 (H.B. 3158) (amending Tex. Rev. Civ. Stat.
A nn. art. 6243a-1).
In the underlying litigation, seven Dallas System
retirees (the “Retirees”) challenge as unconstitutional the
2017 statutory amendments, which eliminate their ability
to request lump-sum distributions from their respective
DROP accounts. The Retirees contend that the funds
in DROP are accrued service retirement benefits and
that the change to how these funds may be withdrawn
effectively reduces or impairs the accrued benefit in
violation of the Texas Constitution, article XVI, section
66(d). That provision prohibits changes that reduce or
impair certain accrued benefits, stating that:

11a
Appendix B
(d) On or after the effective date of this section,
a change in service or disability retirement
benefits or death benefits of a retirement
system may not reduce or otherwise impair
benefits accrued by a person if the person:
(1) could have terminated employment
or has terminated employment before
the effective date of the change; and
(2) would have been elig ible for
those benefits, without accumulating
additional service under the retirement
system, on any date on or after the
effective date of the change had the
change not occurred.
Tex. Const. art. XVI, § 66.
Concluding that Section 66’s application here was
unsettled under Texas law, the Fifth Circuit certified the
following questions to this Court:
1. Whether the method of withdrawal of funds
from Deferred Retirement Option Plan is a
service retirement benefit protected under
article XVI, section 66 of the Texas Constitution.
2. If the answer to Question 1 is “yes,” then
whether the Board of the Dallas Police and
Fire Pension’s System’s decision, pursuant to
the Texas statute in question, to alter previous

12a
Appendix B
withdrawal elections and annuitize the DROP
funds over the respective life expectancy of
the Plaintiffs violates Section 66 of the Texas
Constitution.
Degan v. Bd. of Trs. of Dall. Police & Fire Pension Sys., 766
Fed. Appx. 16, 20 (5th Cir. 2019) (per curiam). The Circuit’s
opinion further summarizes the parties’ constitutional
disagreement to be “whether DROP accounts are ‘service
retirement benefits’ (and therefore protected by Section
66) and whether the DROP withdrawal change reduces or
impairs the benefit (and therefore prohibited by Section
66).” Id. at 18.
II
The Circuit’s first question recognizes that Section
66 protects from reduction or impairment only certain
kinds of benefits. For example, it does not apply to health
benefits, life insurance benefits, or to some disability
benefits. Tex. Const. art. XVI, § 66(c). And while the
constitutional protection expressly applies to service
retirement benefits, id. § 66(d), the Circuit’s opinion
notes a disagreement “about whether DROP accounts are
‘service retirement benefits.’” 766 Fed. Appx. at 18. The
first certified question nevertheless assumes that DROP
is a service retirement benefit by inquiring whether the
method of withdrawal of funds from DROP is itself a
benefit protected by the Constitution. As usual, the Circuit
disclaims any intention or desire that we confine our reply
to the precise form or scope of the questions certified. Id.
at 20. Because of the acknowledged disagreement, we

13a
Appendix B
begin with whether DROP is a service retirement benefit
as the first question assumes.
The Retirees submit that a DROP account must
be a service retirement benefit under our reasoning in
Eddington v. Dallas Police & Fire Pension System, 589
S.W.3d 799, 2019 Tex. LEXIS 243, 2019 WL 1090799
(Tex. Mar. 8, 2019). There, we noted that, contextually,
Section 66 recognizes a pensioner’s annuity payments as
a protected service retirement benefit. Id. at , 2019 Tex.
LEXIS 243 at *13, 2019 WL 1090799, at *5. Because a
DROP account consists of a collection of these annuity
payments and accrued interest in what we have previously
described as a “forced savings account,” it logically follows
that the funds in that account are likewise a service
retirement benefit. Id. at
, 2019 Tex. LEXIS 243, 2019
WL 1090799, at *1.
That conclusion finds further support in the text of the
constitutional provision and underlying statute. Section
66 expressly excludes certain types of benefits, but DROP
is not among those excluded. See Tex. Const. art. XVI,
§ 66(c). Moreover, all of the “Benefits” available under
the system’s pension plan are listed in section 6 of the
plan and underlying statute, and DROP is enumerated
as a benefit in the same manner as the others. See Tex.
Rev. Civ. Stat. A nn. art. 6243a-1, § 6.14. We therefore
agree that the funds deposited in the DROP account (and
accrued interest) are a service retirement benefit to which
the protection afforded by Section 66 may apply.
Although the parties have previously taken contrary
positions on DROP’s status as a service retirement benefit

14a
Appendix B
for purposes of Section 66, they agree in this Court that
the method of withdrawing funds from DROP is not itself a
service retirement benefit. During argument, the Retirees
conceded as much, agreeing that our answer to the first
question, as phrased, should be no. The parties, however,
have different views on the consequences that flow from
that negative answer.
The Board contends that a negative answer to the
first question ends the task certified to us by the Circuit.
The Retirees respond that it does not end our inquiry
because the retirement service benefits at issue here are
the funds in their DROP accounts, and the constitutional
question is whether the changes restricting their access
to these funds is a prohibited reduction or impairment
to that underlying benefit. We agree that this is the
appropriate issue and that it is generally captured in the
second certified question, which asks whether the Board’s
“decision, pursuant to the Texas statute in question, to
alter previous withdrawal elections and annuitize the
DROP funds over the respective life expectancy of the
Plaintiffs violates Section 66 of the Texas Constitution.”
766 Fed. Appx. at 20. We turn, then, to the Constitution’s
application to that question.
III
Our guiding principle when interpreting the Texas
Constitution is to give effect to the intent of the voters who
adopted it. Cox v. Robison, 105 Tex. 426, 150 S.W. 1149, 1151
(Tex. 1912). We presume that the framers carefully chose
the language, and we interpret their words accordingly.

15a
Appendix B
Leander Indep. Sch. Dist. v. Cedar Park Water Supply
Corp., 479 S.W.2d 908, 912 (Tex. 1972). In determining
the intent of the framers and adopters of a constitutional
proposition, we may consider contextual factors such as
“the history of the legislation, the conditions and spirit
of the times, the prevailing sentiments of the people,
the evils intended to be remedied, and the good to be
accomplished.” Harris Cty. Hosp. Dist. v. Tomball Reg’l
Hosp., 283 S.W.3d 838, 842 (Tex. 2009) (internal citation
omitted).
The history of Section 66 indicates that its impetus
was a Depression-era decision from this Court that
subordinated the pension rights of public servants to
the authority of the state to diminish or abolish future
pension payments. See City of Dall. v. Trammell, 129
Tex. 150, 101 S.W.2d 1009, 1017 (Tex. 1937) (holding
that a “pensioner has no vested right” to future pension
payments). In Trammell, the Court considered whether
a public employee, after retirement, had “a vested right
to participate in the pension fund to the extent of the
full amount of monthly installments granted to him at
retirement.” Id. at 1011. At issue was whether that monthly
amount could be reduced. Exemplifying Texas’s historical
view of public pensions as a “gratuity,” the Court held
that a pensioner had no vested right to future pension
installments and, therefore, the Legislature could reduce
accrued benefits or abolish the pension system altogether.
Id. at 1013, 1017.
Section 66 directly responds to that holding as a 2008
Texas Attorney General opinion explains:

16a
Appendix B
The effect the Legislature—the makers—
intended in adopting House Joint Resolution
54 . . . proposing the constitutional amendment
was to insure that retirement benefits (the
monthly pension payments) of vested municipal
employees would not be reduced or impaired by
subsequent, unilateral legislative action.
Tex. Att’y Gen. Op. No. GA-0615 (2008). Legislative
history thus confirms that Section 66 was added to the
Constitution to overrule our decision in Trammell by
protecting the amount of monthly pension payments from
reduction or impairment through subsequent changes
to the system. Tex. Const. art. XVI, § 66; see also Van
Houten v. City of Fort Worth, 827 F.3d 530, 537-38 (5th
Cir. 2016) (“Section 66 reverses the core unfairness of
the Trammell decision by ensuring that earned benefits
cannot be reduced.”).
Both the Fifth Circuit and this Court have previously
considered the protection afforded by Section 66. In Van
Houten, the Fifth Circuit considered whether Section
66(d) prohibited pension reforms designed to decrease
expected, but as-yet unearned, benefits. 827 F.3d at
534. The employees who objected to the reforms argued
that the formula used to calculate the benefit vested
and became constitutionally protected, along with the
benefit, when the employee reached retirement age. Id.
at 535. Thus, in the employees’ view, Section 66 foreclosed
even wholly prospective formula adjustments. Id. The
Circuit disagreed. It concluded that, in the context of the
constitutional provision, “benefits” refers to payments

17a
Appendix B
but does not encompass the formula by which those
payments are calculated. See id. at 535-37 (discussing the
“numerous indications that the term ‘benefits’ refers only
to payments”). As the Fifth Circuit observed, “Section
66(d) prohibits the impairment of accrued benefits for
vested employees.” Id. at 534 (emphasis in original).
Thus, the pension reform that altered the rate at which
future benefits accrued did not violate the constitutional
provision.
Later, our decision in Eddington agreed with Van
Houten’s contextual understanding of the term “benefit”
as referring to the pension’s annuity payments and not
the formula by which those payments are calculated.
Eddington,
S.W.3d at , 2019 Tex. LEXIS 243 at *6,
2019 WL 1090799, at *5. We further agreed “that ‘accrued’
benefits under Section 66(d) are those that have been
earned by service, not those that may be earned by
future service.” Id. at
, 2019 Tex. LEXIS 243 at *12,
2019 WL 1090799, at *4 (citing Van Houten, 827 F.3d at
535). Pensioners in that case contended that Section 66
prohibited the pension system from reducing the interest
rate paid on their DROP accounts. We did not agree
that the change invoked Section 66’s protection because
the interest-rate reduction applied prospectively and
therefore did not affect accrued benefits. Id. at , 2019
Tex. LEXIS 243, 2019 WL 1090799, at *1.
The Circuit suggests the issue here is much closer
because the statutory reform introduced by House Bill
3158 “seems to retroactively nullify a retiree’s election
about” payment from a DROP account and “seems to

18a
Appendix B
relate to . . . previously accrued or granted benefits.” 766
Fed. Appx. at 19. The Retirees similarly argue that the
change here does not apply prospectively to the accrued
benefits in their DROP accounts, as was the case of
the interest-rate reduction in Eddington, but rather
has a retrospective impact on those funds. Before the
change, the Retirees ostensibly controlled the rate at
which they could draw funds from their DROP accounts.
They could elect to withdraw the funds as a single-sum
distribution, as a monthly annuity based on the member’s
life, or in substantially equal monthly or annual payments
designated by the member. See Act of June 18, 1993,
73rd Leg., R.S., ch. 872, § 1, 1993 Tex. Gen. Laws 3432,
3465–66 (formerly Tex. Rev. Civ. Stat. A nn. art. 6243a-1,
§ 6.14(d)(1)–(3) (1993)). The 2017 amendment to the statute
(H.B. 3158) eliminated all but the monthly annuity option
for distributing DROP funds. See Tex. Rev. Civ. Stat.
A nn. art. 6243a-1, § 6.14(e). The Retirees complain that
this change violates Section 66 by retroactively voiding
previous elections and effectively denying them access
to their accrued benefits. They essentially contend that
the funds in their DROP accounts have been reduced or
impaired because the Retirees no longer have unfettered
access to them.
But the reform here does not negatively affect the
amount of money in the Retirees’ DROP accounts. The
monthly annuity payments and earned interest collected
in those accounts are neither reduced nor impaired. Only
the rate at which the Retiree is permitted to withdraw
these funds is affected. While an outright denial of
access to these funds might reasonably be considered an

19a
Appendix B
impairment, the complaint here is that the pensioner’s
choices about access have been impaired by the statutory
reform that eliminates two of the three previous methods
of distribution. The Dissent characterizes the statutory
choice under former law as a property right that attaches
to DROP funds as they accumulate, and, as such, a
right entitled to protection under Section 66. Post at .
But Eddington distinguishes between pension annuity
payments and plan terms, observing that nothing in
Section 66’s text “suggests that all retirement plan terms
are protected benefits” and rejecting the general notion
that DROP is “a contract between the System and a member
that cannot be changed.” Eddington,
S.W.3d at
,
2019 Tex. LEXIS 243 at *12, 2019 WL 1090799, at *4-*5.
The legislative history, moreover, bears this out. See, e.g.,
House Comm. on Pensions & Invs., Bill Analysis, Tex.
H.J. Res. 54, 78th Leg., R.S. (2003) (deleting language
in earlier version of Section 66 stating that “membership
in such a plan is a contractual relationship”). Instead of
a strict contractual regime, Texas chose a more flexible
approach allowing for prospective changes to benefits not
yet granted. See Tex. Leg. Council, Analyses of Proposed
Constitutional Amendments, Sept. 13, 2003 Election, at
101 (July 2003) (noting that Section 66 allows prospective
changes to “adjust retirement benefits if necessary
to respond to changing economic times”) [hereafter
“Legislative Analyses”], available at https://tlc.texas.gov/
docs/amendments/analyses03.pdf.
The constitutional complaint here is similar to the
one rejected by the Fifth Circuit in Van Houten. There,
the employees argued that Section 66 prohibited changes

20a
Appendix B
to the benefit formula after vesting in the plan—that is,
after the employee became eligible to retire. The Circuit
rejected the notion that the formula also vested at that
time, “meaning that even wholly prospective formula
adjustments are foreclosed by Section 66.” Van Houten,
827 F.3d at 535. The Circuit further rejected a 2008 Texas
Attorney General Opinion construing Section 66(d) to
“prohibit[] a change in the method of determining the
compensation base of vested employees if such action
reduces or impairs retirement benefits that the employee
would have been eligible to receive on or before the effective
date of the change.” Tex. Att’y Gen. Op. No. GA-0615, at
11. “The Circuit disagreed with the opinion’s analysis,
noting that, after finding Section 66’s text and legislative
history unhelpful, the opinion based its ultimate holding
on ‘other state supreme courts, particularly those of New
York, Illinois, and Alaska.’” Eddington,
S.W.3d at ,
2019 Tex. LEXIS 243 at *10, 2019 WL 1090799, at *4 (citing
Van Houten, 827 F.2d at 536). “It was problematic, the
Circuit noted, to assume that Texas had suddenly decided
to copy these states, particularly with respect to public
pension protection [an area in which Texas was known to
be an outlier].” Id. (citing Van Houten, 827 F.2d at 537).
Indeed, Section 66 strikes a careful constitutional balance,
granting “those retirement systems the flexibility the
systems need to adjust retirement benefits if necessary to
respond to changing economic times, while still protecting
the benefits that local government employees have already
earned.” Legislative Analyses at 101.
Although not bound by the Van Houten decision,
we nevertheless noted our agreement with the Circuit’s

21a
Appendix B
analysis of the constitutional text. Eddington,
S.W.3d
at
, 2019 Tex. LEXIS 243 at *3, 2019 WL 1090799,
at *4 . Thus, Eddington similarly construed the term
“‘benefits’” in Section 66 as “‘refer[ring] to payments[,]’”
and the protected payments as “the pensioner’s annuity
payments.” Id. at
, 2019 Tex. LEXIS 243 at *13, 2019
WL 1090799, at *5 (quoting Van Houten, 827 F.3d at 535).
The Board argues that, in contrast to the payments
protected under Section 66, the Retirees’ claim here seeks
to constitutionalize a lump-sum method of withdrawing
DROP funds. The Board maintains that such a method is
simply a plan term that determines how DROP funds are
distributed and, like other plan terms, is subject to change.
The Board concludes that Section 66 protects only monthly
pension annuity payments and not the methodology
for DROP withdrawals, and thus does not apply to the
change at issue here. But labeling the change as a mere
methodology or plan term does not directly address the
constitutional question. The changes determined to be
constitutional in Van Houten and Eddington were so, not
because they were terms or methodologies, but because
they did not reduce or impair an accrued benefit. Had
the benefit formula in Van Houten or the interest rate
reduction in Eddington been applied retroactively to
reduce an accrued benefit, the constitutional protection
would have plainly been invoked. But the pension reforms
in those cases did not negatively adjust prior accruals
or take back earned interest and thus did not implicate
Section 66.
The question of this reform’s retroactive effect is more
nuanced, however. The underlying statute previously

22a
Appendix B
permitted a DROP participant to elect one of three
alternative methods of distribution from the fund—an
election that, under the statute, could be changed at any
time before the participant left active service. See Act
of June 18, 1993, 73rd Leg., R.S., ch. 872, § 1, 1993 Tex.
Gen. Laws 3432, 3465–66 (formerly Tex. Rev. Civ. Stat.
A nn. art. 6243a-1, § 6.14(d), (f) (1993)). Thus, the change
is retrospective in the sense that previous elections about
how the DROP participant anticipated having the funds
distributed are superseded by the statutory amendment
mandating monthly annuity payments. But does that
change implicate Section 66 by reducing or impairing the
accrued benefit? The Retirees argue that it does because
their election to take a lump-sum distribution has a
greater net value to them than the annuity that replaces it
under the pension reform. Even assuming that to be true,
we fail to see how the benefits in their respective accounts
have been reduced or impaired by the elimination of this
election or the flexibility it provided under former law.
In Eddington, we observed once again that issues
of constitutional construction may include “a provision’s
history, the conditions and spirit of the times in which it
was adopted, the prevailing sentiments of the people who
framed and adopted it, the evils intended to be remedied,
and the good to be accomplished.” Eddington,
S.W.3d
at , 2019 Tex. LEXIS 243 at *14, 2019 WL 1090799, at
*5 (internal quotation marks omitted). Without question,
Section 66’s purpose was to overrule our Depression-era
decision in Trammell. As the Fifth Circuit has observed,
“Section 66 reverses the core unfairness of the Trammell
decision by ensuring that earned benefits cannot be

23a
Appendix B
reduced.” Van Houten, 827 F.3d at 537-38. But unlike
Trammell, the change here does not take away an accrued
or granted annuity payment. And like Eddington, the
reforms here do not affect the Retirees’ non-DROP monthly
pension annuity payments or the dollar amount of the
funds previously credited to DROP. Eddington,
S.W.3d
at
, 2019 Tex. LEXIS 243 at *11, 2019 WL 1090799, at
*5. Moreover, the reform at issue does not retroactively
reverse lump-sum distributions already paid out under
former law; it merely changes the method of withdrawal
going forward by requiring the pension system to
distribute all DROP funds with interest in the form of
an annuity.
***
Under the Texas Constitution, the pension system
must be managed according to sound actuarial principles
for the benefit of its membership. Tex. Const. art. XVI,
§ 67(a). The Government Code further imposes a duty
on the Board of Trustees to hold pension system assets
in trust for the benefit of all participants, which includes
“the members and retirees of the system and their
beneficiaries.” Tex. Gov. Code § 802.201. Separate from
the Board’s ministerial duty to hold these assets in trust is
its obligation to manage the pension system according to
sound actuarial principles that do not reduce or otherwise
impair constitutionally protected benefits. Tex. Const. art.
XVI, §§ 66(f), 67(a).
While Section 66 modifies Texas’s former “gratuity”
approach to pension benefits for non-statewide plans by

24a
Appendix B
protecting some benefits, Section 66 does not prohibit
prospective pension reforms. See Van Houten, 827
F.3d 538 (noting Texas’s “long-held flexible approach
permitting municipalities to revise their pension plans in
light of changing economic conditions”). It does, however,
prohibit the reduction or impairment of an accrued
service retirement benefit, which we have interpreted as
protection for the pensioner’s vested annuity payments. A
pension reform that abandons a more flexible distribution
scheme—a scheme that allowed the pensioner to elect
how the accrued benefits would be paid over time—in
favor of a more predictable scheme—one that preserves
access through a vested annuity—does not violate the
constitutional prohibition.
We therefore conclude that House Bill 3158, the 2017
amendment to Article 6243a-1, does not violate Article
XVI, Section 66 of the Texas Constitution. Our answer
to both certified questions is no.
John P. Devine
Justice
Opinion Delivered: January 31, 2020

25a
Appendix B
Justice Boyd, joined by Justice Green, dissenting.
On Janua r y 9, 2 0 2 0, Gover nor Greg
Abbott posted on T w itter to celebrate “National
#LawEnforcementAppreciationDay” and to thank “the
men and women of law enforcement who bravely serve
our communities and keep us safe.”1 That night, as winter
storms approached the State, he posted another tweet,
asking Texans to keep “all of Texas’ first responders
in their prayers.” 2 The following morning, a driver lost
control on an icy Lubbock highway, striking and killing
Lubbock police officer Nicholas Reyna and Lubbock
firefighter Eric Hill and critically injuring firefighter
Matt Dawson while they were helping others who had
been involved in two previous accidents.3 Numerous Texas
officials, agencies, organizations, and individuals tweeted
condolences and gratitude for these first responders’
commitment to public service.4 Uniformly, the expressions
were sincere, meaningful, and appropriate.
1. Gov. Greg Abbott (@GovAbbott), T witter (Jan. 9, 2020, 12:03
PM), https://twitter.com/GovAbbott/status/1215363534995050496.
2. Id. (Jan. 9, 2020, 7:00 PM), https://twitter.com/GovAbbott/
status/1215468476900552705.
3. KCBD Staff, Firefighter, Police Officer Struck, Killed
While Working Wreck on I-27, KCBD, Jan. 12, 2020, https://www.
kcbd.com/2020/01/11/firefighter-police-officer-struck-killed-whileworking-wreck-i-/.
4. See City of Lubbock (@cityof lubbock), T W IT TER
(Jan. 11, 2020, 3:24 PM), https://tw itter.com /cityof lubbock /
status/1216138816190386178.

26a
Appendix B
But Texans know that thoughtful expressions aren’t
nearly enough. When it comes to public employees’
retirement and death benefits, Texans have bound their
government to actively preserve what public employees
have entrusted to it. In 2003, Texans ratified a constitutional
amendment providing that local public retirement systems
cannot retroactively “reduce or otherwise impair” a public
officer’s or employee’s retirement benefits. Tex. Const.
art. XVI, § 66(d), (e), (f). Honoring this constitutional
guarantee has proven difficult, however, as public pension
systems have struggled to maintain solvency for one
reason or another. See Eddington v. Dall. Police & Fire
Pension Sys., 589 S.W.3d 799, 2019 Tex. LEXIS 243, 2019
WL 1090799, at *2 (Tex. Mar. 8, 2019).
The Dallas Police and Fire Pension System provides
retirement, death, and disability benefits for roughly 9,300
police officers and firefighters. In 1993, the pension system
began offering a Deferred Retirement Option Plan as an
incentive to retain experienced first responders who would
otherwise leave their departments when they became
eligible for retirement. See Act of May 26, 1993, 73d Leg.,
3 R.S., ch. 872, § 1, 1993 Gen. Laws 3432, 3465–67. Under
the DROP, police officers and firefighters who become
eligible for retirement can elect to continue serving and
drawing their salary while also receiving retirement
payments in the form of a monthly annuity deposited into
their DROP accounts. When the officers or firefighters
ultimately leave active service, they begin receiving
their monthly retirement payments and can also access
the funds that have accrued in their DROP accounts. As
originally designed, the retirees could elect to withdraw

27a
Appendix B
all of their DROP funds as one single lump-sum payment,
through partial lump-sum payments as needed, through
self-designated equal payments over a specific period of
time, or through monthly annuity payments calculated on
the retiree’s life expectancy.
In 2016, word got out that the pension system was
substantially underfunded and might require an infusion
of extra funds to honor all of its payment obligations.
Hearing this news, retirees began withdrawing their
DROP funds at increasing rates. In response, the pension
system’s board of trustees temporarily froze all DROP
withdrawals and then adopted a DROP addendum
restricting retirees’ access to the funds in their DROP
accounts. The Texas legislature eventually stepped in and
amended the statute that governs public employee pension
systems. Tex. Rev. Civ. Stat. art. 6243a-1, § 6.14(e); see Act
of May 30, 2017, 85th Leg., 4 R.S., ch. 318, §§ 1.01–.50, 2017
Tex. Gen. Laws 639, 639–709 (amending Tex. Rev. Civ.
Stat. art. 6243a-1). Under the amended statute, retirees
can no longer withdraw all of their DROP-account funds
or take self-designated partial payments when they leave
active service; instead, subject to a few limited exceptions,
the only way they can access their DROP-account funds
is through monthly or annual annuity payments based on
their life expectancy.
The appellants in this case all elected to enter the
DROP when they began working for the Dallas police
and fire departments. When they became eligible for
retirement, they chose to remain in active service and
allowed their retirement payments to be deposited into

28a
Appendix B
their DROP accounts. No one disputes that the funds in
those accounts belong exclusively to the appellants, and
not to the State or the pension system. The appellants
all allege that they relied on the fact that they could
withdraw all or part of their DROP funds when they left
active service, but the statutory amendments now prevent
them from doing so.
Before the 2017 amendments, for example, Larry
Eddington had more than $ 800,000 in his DROP account,
and he planned to withdraw substantial partial payments
to supplement his pension and pay additional living
expenses; but now, he is limited to an annuity payment of
just over $ 5,000 per month. LaDonna Degan requested
a lump-sum distribution to cover her daughter’s medicalschool tuition and expenses. John McGuire needed the
funds to pay for his daughter’s college education and
for post-retirement business activities he had planned.
Mike Gurley requested a lump-sum distribution to pay
tuition for his daughter’s last semester of college. Ric
Terrones requested distributions to pay for major home
repairs. Reed Higgins relied on lump-sum withdrawals to
supplement his monthly pension and to pay for major home
repairs, and has now had to seek additional employment
to provide for his family. Steven McBride used to take
out funds two or three times a year to cover his living
and home-related expenses. The funds in their DROP
accounts—which they each exclusively own—remain the
same, but because of the 2017 amendments, these retired
first responders can no longer access the funds as provided
when they opted to participate in the DROP.

29a
Appendix B
The issue is whether the 2017 amendments violate
article XVI, section 66 of the Texas Constitution, which
prohibits pension-plan changes that retroactively “reduce
or otherwise impair” the first responders’ retirement
benefits. Tex. Const. art. XVI, § 66(d), (f). No one disputes
that the legislature and the pension system changed
the DROP withdrawal provisions as a good-faith effort
to resolve an impending financial crisis. And we must
presume that they “intended for the law to comply with the
United States and Texas Constitutions, to achieve a just
and reasonable result, and to advance a public rather than
a private interest.” Tex. Mun. League Intergovernmental
Risk Pool v. Tex. Workers’ Comp. Comm’n, 74 S.W.3d 377,
381 (Tex. 2002) (citing Tex. Gov ’t Code § 311.021; Spence
v. Fenchler, 107 Tex. 443, 180 S.W. 597, 605 (Tex. 1915)).
“Nevertheless, the Legislature may not authorize an
action that our Constitution prohibits.” Id.
The Court concludes that the monthly retirement
payments deposited into an employee’s DROP account and
the interest the account accrues on those funds qualify
as “benefits” that section 66 protects, but the “method
of withdrawal” of funds from the account does not. Ante
at
. Based on these conclusions, the Court holds that
the 2017 amendments did not “reduce or otherwise impair”
the retirees’ benefits because they did not “take away an
accrued or granted annuity payment,” affect “the dollar
amount of the funds previously credited to DROP,” or
“negatively affect the amount of money in” the DROP
accounts, but instead “merely change[d] the method of
withdrawal.” Ante at
.

30a
Appendix B
I agree that, because the 2017 amendments did
not retroactively decrease the amount of the monthly
payments or prospectively lessen the amount of funds
in the DROP accounts, they did not “reduce” the first
responders’ retirement benefits. But the Constitution
guarantees that the benefits will not be “reduced or
otherwise impaired.” Tex. Const. art. XVI, § 66(d), (e), (f).
While concluding that the amendments do not “reduce”
the benefits, the Court completely ignores whether the
amendments “otherwise impair” the benefits.
The Constitution does not define the terms “reduce
or otherwise impair,” so we must consider their common,
ordinary meanings. See Anadarko Petroleum Corp.
v. Hous. Cas. Co., 573 S.W.3d 187, 192-93 (Tex. 2019).
To “reduce” is “to diminish in size, amount, extent, or
number.” Reduce, Webster’s Third New International
Dictionary 1905 (2002). “Otherwise” means “in a different
way or manner.” Otherwise, Webster ’s T hird New
International Dictionary 1598 (2002). To “impair” is
“to diminish the value of (property or a property right).”
Impair, Black ’s L aw Dictionary 754 (7th ed. 1999);
see also Impair, Webster’s Third New International
Dictionary 1131 (2002) (“to make worse: diminish in
quantity, value, excellence, or strength”). Giving effect to
all of the Constitution’s words, section 66 prohibits any
change that either diminishes the amount of the funds in
the DROP accounts or in some other way diminishes the
value of the first responders’ right to those funds.
Although the Court begins its analysis by reciting
platitudes about the framers’ chosen language and how

31a
Appendix B
courts must interpret the Constitution’s words, ante
at
, it never actually makes any effort to interpret the
words “reduce” or “impair” or to distinguish their related
but different meanings. Instead, the Court lumps the two
terms together and turns immediately to “contextual
factors,” including the provision’s “purpose” and
legislative history, the “conditions and spirit of the times,
the prevailing sentiments of the people, the evils intended
to be remedied, and the good to be accomplished.” Ante
at
(citing Harris Cty. Hosp. Dist. v. Tomball Reg’l
Hosp., 283 S.W.3d 838, 842 (Tex. 2009)). While these
contextual factors may be helpful, they can never replace
the text itself. We begin with and “rely heavily on the
literal text,” Harris Cty. Hosp. Dist., 283 S.W.3d at 842,
so much so that courts need not consider contextual
evidence at all when the meaning of the text itself is plain.
Eddington,
S.W.3d at
, 2019 Tex. LEXIS 243 at
*14, 2019 WL 1090799, at *5; see also Republican Party
of Tex. v. Dietz, 940 S.W.2d 86, 89 (Tex. 1997) (“When
interpreting our state Constitution, we rely heavily on its
literal text and are to give effect to its plain language.”
(citations omitted)). Inexplicably, the Court in this case
ignores the text and considers only the context instead.
As the Court observes, allowing access only through
monthly lifetime annuity payments does not diminish the
amount of funds in the DROP accounts. Ante at
. But
it does diminish the value of the first responders’ right
to those funds. Everyone agrees the first responders are
the exclusive owners of the funds in their DROP accounts.
These funds are “accrued” benefits—those “that have
been earned by service, not those that may be earned

32a
Appendix B
by future service.” Eddington,
S.W.3d at
, 2019
Tex. LEXIS 243 at *12, 2019 WL 1090799, at *4. As the
exclusive owners of the funds, the first responders enjoy a
“bundle of rights” that includes the right to possess, use,
and transfer those funds as they may wish, and to exclude
others from doing the same. Evanston Ins. Co. v. Legacy
of Life, Inc., 370 S.W.3d 377, 382-83 (Tex. 2012) (“Some of
the key rights in American jurisprudence that make up
the bundle of property rights include the rights to possess,
use, transfer and exclude others.”) (citing Kaiser Aetna v.
United States, 444 U.S. 164, 176, 100 S. Ct. 383, 62 L. Ed.
2d 332 (1979); United States v. General Motors Corp., 323
U.S. 373, 378, 65 S. Ct. 357, 89 L. Ed. 311 (1945)). Prior to
the 2017 amendments, the first responders had the legal
right to exercise that “bundle of rights” whenever they left
active service. After the amendments, they may no longer
exercise their bundle of rights as they see fit. Instead,
the pension system enjoys the right to possess, use, and
transfer the funds as it sees fit, so long as it does not
reduce the total amount of those funds. The amendments
diminished the value of the funds to those who actually
own them, and thus “otherwise impaired” the benefits.
As the Court notes, “nothing in Section 66’s text
‘suggests that all retirement plan terms are protected
benefits.’” Ante at
(quoting Eddington,
S.W.3d
at
, 2019 Tex. LEXIS 243,2019 WL 1090799, at
*4-*5) (emphasis added). A prospective-only change in the
formula for calculating the amount of future payments,
which does not in any way reduce or impair the payments
that have already been earned, does not violate section
66. Van Houten v. City of Fort Worth, 827 F.3d 530, 538

33a
Appendix B
(5th Cir. 2016). Nor does a prospective-only change in
the interest rate those funds may earn in the future.
Eddington,
S.W.3d at
, 2019 Tex. LEXIS 243 at
*12, 2019 WL 1090799, at *5. But a change that restricts
or prohibits access to funds already earned does. Funds
previously deposited into a first responder’s DROP account
are “protected benefits,” and section 66 prohibits any planterm change that retroactively “reduces or otherwise
impairs” those benefits. The change at issue here did not
merely prospectively alter a contractual right. Instead,
it diminished the value of an accrued property right
by restricting access to that property. While it did not
“reduce” the amount of the funds accrued, it “otherwise
impaired” those benefits in violation of section 66.
By conceding that “an outright denial of access to these
funds might reasonably be considered an impairment,”
the Court acknowledges that the Constitution protects
the first responders’ access to the funds in their DROP
accounts. Ante at
. Yet contrary to the reasons the
Court provides for its ultimate holding, an outright denial
of access to the funds would not “negatively affect the
amount of money in” the DROP accounts. Ante at
.
Nevertheless, the Court concedes that a denial of access
would “impair” the benefits even though it wouldn’t
“reduce” them. Having made that concession, the only
remaining question is: how much of an “impairment”
does it take to violate the Constitution? Could the pension
system delay all DROP-account withdrawals for a period
of fifty years, or twenty-five, or ten, or two? Could it limit
withdrawals to no more than $ 10,000, $ 1,000, $ 100, or
even $ 10 per month?

34a
Appendix B
The Constitution answers that question: neither the
legislature nor the pension system may “reduce” (diminish
the amount) or “otherwise” (in any other way) “impair”
(diminish the value of) the funds in the DROP accounts. It
does not prohibit only changes that “reduce or completely
impair,” or “substantially impair,” or “unreasonably
impair” the benefits; it prohibits changes that “reduce or
otherwise impair” the benefits. We need not engage in the
kind of line-drawing to which the Court alludes, because
the Constitution’s text leaves no room for it.
To be sure, the 2017 amendments did not completely
eliminate the first responders’ DROP benefits or outright
deny access to them, but that’s not what the Constitution
prohibits. These appellants elected to participate in the
DROP, agreed to continue working once they became
eligible for retirement, and permitted their retirement
payments to be deposited into an account they could not
access until they ultimately left active service. But they did
all this under a plan that gave them the right to decide at
that point whether to withdraw all of their funds, withdraw
partial payments, or fund an annuity based on their life
expectancy. By retroactively depriving them of that right and
forcing them to accept only lifetime annuity payments, the
2017 amendments “otherwise impaired” the accrued DROP
benefits by diminishing their value to their exclusive owners.
Because the Court holds otherwise, I respectfully dissent.
Jeffrey S. Boyd
Justice
Opinion delivered: January 31, 2020

35a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED MARCH 20, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10423
LADONNA DEGAN; RIC TERRONES; JOHN
MCGUIRE; REED HIGGINS; MIKE GURLEY;
LARRY EDDINGTON; STEVEN MCBRIDE,
Plaintiffs-Appellants,
v.
THE BOARD OF TRUSTEES OF THE DALLAS
POLICE AND FIRE PENSION SYSTEM,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CV-1596.
March 20, 2019, Filed
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.

36a
Appendix C
PER CURIAM:*
Several beneficiaries of the City of Dallas pension fund
for police and firefighters (collectively “Plaintiffs”) sued
the City over changes to the pension fund they contend
violate the United States and Texas Constitutions. Because
we conclude that the Texas constitutional questions should
be certified to the Supreme Court of Texas and that the
resolution of those questions will impact the case as a
whole, we certify the questions set forth below and stay the
remainder of the case pending the outcome in the Supreme
Court of Texas (i.e., whether certification is accepted and,
if it is, what result is reached).
We briefly discuss the facts and the arguments and
then articulate the certified question.
I. BACKGROUND
The City of Dallas has provided its police and
firefighters a pension fund program since at least 1997.
The pension fund was created in accordance with state
law and is administered by the Board of Trustees of the
Dallas Police and Fire Pension System (“the Board”).
Among the advantages of the pension fund are
Deferred Retirement Option Plans or DROP accounts.
DROP accounts are a statutory creation of the Texas
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

37a
Appendix C
legislature. See Tex. Rev. Civ. Stat. A nn. art. 6243a-1,
§ 6.14 (2011).1 They were created for City employees who
reach retirement age but who elect to continue working.
See id. § 6.14(a). Rather than retiring and receiving
the pension funds they would be entitled to, employees
continue working and the money they would have received
each month under the pension is credited to an individual
DROP account. See id. § 6.14(c). There, the employees’
money continues to garner interest. See id. § 6.14(c). Once
employees leave active service, they begin receiving their
monthly pension payments instead of the payments being
credited to the DROP account. Id. § 6.14(a). They can also
begin accessing the funds that previously built up in their
DROP account. Id. § 6.14(a). By statute, employees were
previously able to elect one of three ways to receive the
DROP funds that were paid on top of their remaining
pension benefits: (1) as “a single-sum distribution,” (2) as
“an annuity to be paid in equal monthly payments for the
life of the member,” or (3) as “substantially equal monthly
or annual payments” in an amount designated by the
member. Id. § 6.14(d).
The pension fund began to suffer various financial
problems. In 2014, the Board proposed reducing the
interest rate that applied to the increasingly dominant
DROP accounts. See Eddington v. Dall. Police & Fire
Pension Sys., No. 17-0058, 589 S.W.3d 799, 2019 Tex.
LEXIS 243, 2019 WL 1090799, at *2 (Tex. Mar. 8, 2019).
Members of the fund approved the proposal and the
1. The allegations in the complaint cover 1997 to the present,
and article 6243a-1 has been amended multiple times during that
period.

38a
Appendix C
interest rate began to gradually drop. Id. But losses in
the pension fund continued. The problem worsened when
DROP participants increasingly began electing lump-sum
withdrawals instead of spreading them out over time.
The pension fund entered the same downward spiral that
happens during a bank run.
Mayor Michael Rawlings halted the run in December
2016 by filing a state court lawsuit against the Board and
the pension fund. He received a temporary restraining
order prohibiting the pension fund from paying out
funds from any DROP accounts. The next month, the
Board adopted an addendum that temporarily prohibited
any DROP withdrawals except for “required minimum
distributions and unforeseeable emergency withdrawals.”
The addendum nullified “all DROP withdrawal requests
on file with [Dallas Police and Fire Pension], including
requests for both lump sum payments and monthly
installments.” After the temporary freeze, participants
would then receive distributions based on their pro-rata
share of DROP funds and a formula defined by the plan.
Retirees could also elect to receive an annual distribution
of $30,000 or $36,000 depending on the year. Finally, the
addendum granted retirees the option of withdrawing
funds for certain unforeseeable emergencies.
Months after the Mayor’s and Board’s actions, the
Texas Legislature amended the pension statute. See Act
of May 30, 2017, 85th Leg., R.S., ch. 318, 2017 Tex. Sess.
Law Serv. Ch. 318 (H.B. 3158) (amending, inter alia, Tex.
Rev. Civ. Stat. A nn. art. 6243a-1). Instead of permitting
retirees to elect lump-sum or adjusted monthly payments,

39a
Appendix C
the statute now permits only an annuitized option. See
Tex. Rev. Civ. Stat. A nn. art. 6243a-1, § 6.14(e). By its
terms, the change applies to those who had already left
active service and were receiving DROP payments, as well
as those who would leave active service in the future. Id.
Many years before these events, Texas voters had
approved a constitutional amendment protecting public
retirement systems like Dallas’s pension fund. The
amendment is embodied in article XVI, section 66 of the
Texas Constitution. At its heart, the amendment protects
“service . . . retirement benefits” from being “reduce[d]
or otherwise impair[ed].” Tex. Const. art. XVI, § 66(d).
(“Section 66”).
After the pension statute was amended, Plaintiffs
filed suit under the United States Constitution’s Takings
Clause and under the Texas Constitution challenging
their inability to obtain lump-sum distributions. Plaintiffs
consist of individuals who elected lump-sum withdrawals
and adjusted monthly payments. Each made their election
prior to the 2017 amendment of the pension statute. Some
had already begun receiving adjusted monthly payments,
which were discontinued in favor of the annuitized amount.
The district court ruled against the Plaintiffs, and they
timely appealed.
II. DISCUSSION
The parties disagree about whether DROP accounts
are “service retirement benefits” (and therefore protected
by Section 66) and whether the DROP withdrawal change

40a
Appendix C
reduces or impairs the benefit (and therefore prohibited
by Section 66). Plaintiffs filed an opposed motion to certify
the Section 66 questions to the Supreme Court of Texas. 2
The motion was carried with the case and ultimately
referred to this panel for consideration of the merits of
this case and the motion to certify. 3
The Texas Constitution grants the Supreme Court of
Texas the power to answer questions of state law certified
by a federal appellate court. Tex. Const. art. V, § 3-c(a).
Texas rules provide that we may certify “determinative
questions of Texas law having no controlling Supreme
Court [of Texas] Precedent” to the Supreme Court of
Texas. Tex. R. A pp. P. 58.1.
Generally, three considerations govern the decision
to certify. See Swindol v. Aurora Flight Scis. Corp., 805
F.3d 516, 522 (5th Cir. 2015). In sum, the three factors
are (1) the closeness of the question; (2) considerations of
comity in the particular case; and (3) practical limitations
2. The Board asserts that Plaintiffs failed to make a claim
under Section 66. We disagree. Their complaint clearly asserted
violations of the Texas Constitution and referenced Section 66.
Additionally, the district court considered and ruled upon the
constitutionality of the Board’s actions in light of Section 66. We
thus conclude that the matter is properly before us.
3. In their supplemental briefing after the Eddington case
issued, Plaintiffs took the position that Eddington shows that they
should prevail on a key issue and provides “sufficient guidance” on
the rest, making certification unnecessary. As discussed below,
we do not agree that Eddington clearly disposes of the different
issues presented here.

41a
Appendix C
such as the possibility of delay and difficulty of framing
the issue. Id.
We conclude that consideration of these factors
warrants certification. First, the question of whether the
DROP withdrawal change violates Section 66 is open. In
Eddington v. Dallas Police and Fire Pension System, a
DROP participant challenged the reduction of the interest
rate on DROP funds. See 2019 Tex. LEXIS 243, 2019
WL 1090799, at *2. The court rejected his claim because
“the change was prospective only and did not impact
benefits accrued or granted within the meaning of the
constitutional provision.” Id. *1.
It is unclear to what extent, if any, that reasoning
applies here and, perhaps unsurprisingly, the parties’
supplemental briefing evinces vastly different readings
of Eddington. According to the complaint, all Plaintiffs
had elected how they would receive payments from their
DROP accounts before the DROP withdrawal change
became effective. Some of them had already received
payments for years before the change. The DROP
withdrawal change thus seems to retroactively nullify a
retiree’s election about how to receive funds in a DROP
account. Additionally, unlike interest rate changes,
the DROP withdrawal change seems to relate to how
and when a retiree can access the pension funds they
previously accrued or granted benefits; all the funds in
the accounts were earned through previous service and
then credited based on time since retirement eligibility.
This issue is thus much closer than the issue in Eddington
or our previous case Van Houten v. City of Fort Worth,

42a
Appendix C
827 F.3d 530, 538 & 540 n.10 (5th Cir. 2016) (deciding
without certification that future, unearned benefits were
not “accrued benefits” under Section 66).
The other two factors heavily favor certification.
Comity is particularly important here. Swindol, 805 F.3d
at 522. This case is about the validity of a state statute’s
application, the interpretation of the state constitution,
and the future of municipal pension funds in the state
involving critical employees (first responders) of a large
city. Finally, no “practical limitations” hinder certification
because the Supreme Court of Texas has already analyzed
a closely related issue and developed a reputation for
a speedy, organized docket. Id. No delay is likely, and
neither party will be prejudiced by certification. We thus
certify two questions to the Supreme Court of Texas.
III. CERTIFIED QUESTIONS
1. Whether the method of withdrawal of funds from
Deferred Retirement Option Plan is a service retirement
benefit protected under article XVI, section 66 of the
Texas Constitution.
2. If the answer to Question 1 is “yes,” then whether
the Board of the Dallas Police and Fire Pension’s System’s
decision, pursuant to the Texas statute in question, to alter
previous withdrawal elections and annuitize the DROP
funds over the respective life expectancy of the Plaintiffs
violates Section 66 of the Texas Constitution.

43a
Appendix C
We disclaim any intention or desire that the Supreme
Court of Texas confine its reply to the precise form or
scope of the questions certified.
Accordingly, we CERTIFY the foregoing questions,
direct the Clerk’s Office to forward this opinion to the
Supreme Court of Texas to determine whether to accept
the certification, and STAY the remainder of this case
pending determination by the Supreme Court of Texas.

44a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
STATES DISTRICT COURT, NORTHERN
DISTRICT OF TEXAS, DALLAS DIVISION,
FILED MARCH 14, 2018
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:17-CV-01596-N
LADONNA DEGAN, et al.,
Plaintiffs,
v.
THE BOARD OF TRUSTEES OF THE DALLAS
POLICE AND FIRE PENSION SYSTEM, et al.,
Defendants.
ORDER
This Order addresses (1) Defendant The Board of
Trustees (the “Board”) of the Dallas Police and Fire
Pension System’s motion to dismiss Plaintiffs LaDonna
Degan, Ric Terrones, John McGuire, Reed Higgins, Mike
Gurley, Larry Eddington, and Steven McBride’s complaint
[75] and (2) the Board’s motion to strike Plaintiffs’ surreply
to the motion to dismiss [89]. For the reasons set forth
below, the Court grants both motions.

45a
Appendix D
I. BACKGROUND
The Dallas Police and Fire Pension System (the
“Pension System”) is a public pension fund that provides
comprehensive retirement, death, and disability benefits
for approximately 9,300 active and retired City of
Dallas police officers and firefighters and their qualified
survivors. The Board serves as the governing body of
the Pension System. It administers the Pension System
according to a Combined Pension Plan Document (the
“Plan”), established by Texas law. See T ex . Rev. Civ.
Stat. A nn. art 6243a-1. The Board has “full discretion and
authority” to construe and interpret the Plan and “to do
all acts necessary to carry out the purpose of” the Plan.
Plan § 3.01(s).
The Pension System contains a feature called the
Deferred Retirement Option Plan, or “DROP.” DROP
originally permitted active Pension System members
eligible for retirement to continue working at their normal
pay rate, while the monthly pension benefits they would
have received upon retirement were credited to the
members’ DROP accounts and held in trust. After leaving
active service, a retiree could elect to leave the funds to
accrue interest in her DROP account, or withdraw the
funds under the procedures set forth in the Plan. The
Plan provided:
The Pension System shall adopt uniform policies
from time to time for the deferral of amounts
into and the disbursement of amounts from the
DROP accounts of DROP participants who have

46a
Appendix D
terminated Active Service and are eligible for
a retirement pension. The policies shall provide
flexibility to such DROP participants in . . .
making total or partial withdrawals from their
DROP accounts to the extent consistent with
the qualification of the Plan under Section 401
of the [Internal Revenue] Code and efficient
administration.
Plan § 6.14 (e). Under this provision, the Board previously
adopted a withdrawal policy that permitted retired DROP
participants to withdraw DROP funds in three forms:
(1) a lump sum payment of some or all of the retiree’s
DROP balance; (2) substantially equal payments made
over a specific period; or (3) regular installment amounts
added to the member’s monthly benefit payment. January
14, 2016 DROP Policy § E(3).
In 2016, after negative news about the Pension System
surfaced, a run on DROP accounts occurred. On December
5, 2016, City of Dallas Mayor Mike Rawlings filed suit
in state district court, seeking a writ of mandamus and
injunction prohibiting the Board from distributing DROP
funds. On December 8, 2016, the state court entered an
unopposed temporary restraining order (the “TRO”)
prohibiting the Board from distributing any DROP funds
pending a temporary injunction hearing. Pursuant to the
TRO, the Board directed staff to immediately cease all
DROP distributions except for those necessary to satisfy
required minimum distribution payments. The Board
indicated that it would adopt changes to the DROP policy
at a later date.

47a
Appendix D
On January 12, 2017, the Board adopted a DROP
Policy Addendum (the “Original Addendum”). The
Original Addendum stated in relevant part:
Except for required minimum distributions
and unforeseeable emergency withdrawals . . .
no DROP withdrawals will be available before
March 31, 2017 . . . .
As of the effective date of this Addendum, all
DROP withdrawal requests on file with [the
Pension System], including requests for both
lump sum payments and monthly installments,
shall be null and void.
January 12, 2017 DROP Policy Addendum §§ 3(a), 4(a).
The Original Addendum set forth three mechanisms
for distributing DROP funds beginning March 31, 2017:
(1) pro rata shares of a monthly “distribution pool” as
determined by the Board; (2) at the retiree’s election,
a minimum annual distribution of $30,000 for 2017 and
$36,000 for subsequent years; and (3) distributions due to
unforeseeable emergencies. Id. §§ 4–7. After the Board
adopted the Original Addendum, Mayor Rawlings sought
no further relief in state court. He later nonsuited his
claims. Shortly after the Board adopted the Original
Addendum, Plaintiffs filed this suit, claiming that the
Original Addendum deprived them of their property
interests in violation of their substantive and procedural
due process rights [1].

48a
Appendix D
Meanwhile, the Texas Legislature was working on
proposed changes to the Pension System. On May 23
and 25, respectively, the Texas Senate and House each
unanimously passed H.B. 3158, which amends the Dallas
Pension statute, TEX. REV. CIV. STAT. ANN. art 6243a1. Act of May 30, 2017, 85th Leg., R.S., ch. 318, § 1.01.
The Texas Governor signed H.B. 3158 into law on May
31, 2017. Among other things, H.B. 3158 changes the way
DROP funds are distributed. In particular, it mandates
that, effective September 1, 2017, DROP funds are to
be annuitized and paid to DROP participants over their
projected life expectancies. Members can thus no longer
withdraw their DROP funds as a lump sum or roll over
the balances of their DROP accounts into their individual
retirement accounts (“IRAs”).
On June 8, 2017, the Board adopted an amendment
to the Original Addendum (the “Revised Addendum”)
reflecting the changes wrought by H.B. 3158. Lump
sum distributions are no longer available under the
Revised Addendum. Instead, DROP members will
receive annuitized monthly or annual DROP distributions
throughout their projected life expectancies. Participants
may also apply for hardship-based distributions before
or after annuitization. The Revised Addendum will
remain in place until the Board implements new rules
and policies pursuant to H.B. 3158. H.B. 3158 and the
Revised Addendum have no net effect on the value of the
DROP funds; they merely change the timing of DROP
distributions. See H.B. 3158 § 1.42; see also June 8, 2017
Amendment to DROP Policy Addendum.

49a
Appendix D
On August 1, 2017, Plaintiffs amended their complaint
[67]. Plaintiffs now allege that the Original Addendum,
H.B. 3158, and the Revised Addendum deprive them
of protected property interests without due process in
violation of the Fourteenth Amendment to the United
States Constitution. Plaintiffs further claim that the
Board’s actions surrounding H.B. 3158 effect a taking
without just compensation in violation of the Fifth
Amendment Takings Clause. Finally, Plaintiffs seek a
declaratory judgment that the Board’s implementation
of H.B. 3158 violates both the United States and Texas
Constitutions. The Board now moves to dismiss Plaintiffs’
amended complaint [75]. For the reasons set forth below,
the Court grants the Board’s motion.
II. THE RULE 12(B)(6) LEGAL STANDARD
When considering a Rule 12(b)(6) motion to dismiss, a
court must determine whether the plaintiff has asserted
a legally sufficient claim for relief. Blackburn v. City
of Marshall, 42 F.3d 925, 931 (5th Cir. 1995). A viable
complaint must include “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). To meet this “facial
plausibility” standard, a plaintiff must “plead[] factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct
alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A
court generally accepts well-pleaded facts as true and
construes the complaint in the light most favorable to the
plaintiff. Gines v. D.R. Horton, Inc., 699 F.3d 812, 816 (5th
Cir. 2012). But a court does not accept as true “conclusory

50a
Appendix D
allegations, unwarranted factual inferences, or legal
conclusions.” Ferrer v. Chevron Corp., 484 F.3d 776, 780
(5th Cir. 2007). A plaintiff must provide “more than labels
and conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Twombly, 550 U.S. at 555
(citations omitted). “Factual allegations must be enough
to raise a right to relief above the speculative level . . . on
the assumption that all the allegations in the complaint
are true (even if doubtful in fact).” Id. (citations omitted).
In ruling on a Rule 12(b)(6) motion, a court generally
limits its review to the face of the pleadings. See Spivey
v. Robertson, 197 F.3d 772, 774 (5th Cir. 1999). However,
a court may also consider documents outside of the
pleadings if they fall within certain limited categories.
First, a “court is permitted . . . to rely on ‘documents
incorporated into the complaint by reference, and matters
of which a court may take judicial notice.’” Dorsey v.
Portfolio Equities, Inc., 540 F.3d 333, 338 (5th Cir. 2008)
(quoting Tellabs, Inc. v. Makor Issues & Rights, Ltd.,
551 U.S. 308, 322 (2007)). Second, a “written document
that is attached to a complaint as an exhibit is considered
part of the complaint and may be considered in a 12(b)(6)
dismissal proceeding.” Ferrer, 484 F.3d at 780. Third, a
“court may consider documents attached to a motion to
dismiss that ‘are referred to in the plaintiff’s complaint
and are central to the plaintiff’s claim.’” Sullivan v. Leor
Energy, LLC, 600 F.3d 542, 546 (5th Cir. 2010) (quoting
Scanlan v. Tex. A & M Univ., 343 F.3d 533, 536 (5th Cir.
2003)). Finally, “[i]n deciding a 12(b)(6) motion to dismiss,
a court may permissibly refer to matters of public record.”
Cinel v. Connick, 15 F.3d 1338, 1343 n.6 (5th Cir. 1994)

51a
Appendix D
(citations omitted); see also, e.g., Funk v. Stryker Corp.,
631 F.3d 777, 783 (5th Cir. 2011) (stating, in upholding
district court’s dismissal pursuant to Rule 12(b)(6), that
“the district court took appropriate judicial notice of
publicly-available documents and transcripts produced by
the [Food and Drug Administration], which were matters
of public record directly relevant to the issue at hand”).
The Court takes judicial notice of the public records cited
in the Board’s motion to dismiss, including the Plan,
records of the Board’s actions, and the Dallas Mayor’s
suit to enjoin DROP distributions.
III. THE COURT GRANTS THE BOARD’S
MOTION TO DISMISS PLAINTIFFS’
DUE PROCESS CLAIMS
Plaintiffs first allege that the Board’s implementation
of H.B. 3158 and the Revised Addendum violate their
Fourteenth Amendment due process rights. Plaintiffs
argue that they have protected property interests in
their earned and vested DROP funds. The Court agrees
with Plaintiffs that DROP funds can indeed constitute
property. See, e.g., Stavinoha v. Stavinoha, 126 S.W.3d
604, 612 (Tex. App. – Houston [14th Dist.] 2004, no pet.)
(treating vested DROP benefits as community property);
see also Ridgely v. FEMA, 512 F.3d 727, 735 (5th Cir.
2008) (stating that constitutionally protected property
interests “are not created by the Constitution itself . . . .
‘Rather, they are created and their dimensions are defined
by existing rules or understandings that stem from an
independent source’ and ‘that secure certain benefits
and that support claims of entitlement to those benefits.’”

52a
Appendix D
(quoting Bd. of Regents of State Colls. v. Roth, 408 U.S.
564, 577 (1972))). But even though Plaintiffs have identified
a protected property interest, determining whether a due
process violation has occurred requires further analysis.
A. Plaintiffs Have Not Shown A Deprivation of
Property
Plaintiffs have failed to show that they were “deprived”
of their DROP funds so as to trigger procedural due
process protections. Plaintiffs argue that their property
interests in the DROP funds necessarily entail the right
to unlimited on-demand withdrawals of the funds. But
Plaintiffs point to no state law authorizing such unlimited
access. Nor does the Plan grant Plaintiffs unfettered access
to their DROP accounts. Instead, the Plan permits DROP
withdrawals only to the extent that such withdrawals are
consistent with efficient Plan administration:
The Pension System shall adopt uniform policies
from time to time for the deferral of amounts
into and the disbursement of amounts from the
DROP accounts of DROP participants who have
terminated Active Service and are eligible for
a retirement pension. The policies shall provide
flexibility to such DROP participants in . . .
making total or partial withdrawals from their
DROP accounts to the extent consistent with
the qualification of the Plan under Section 401
of the [Internal Revenue] Code and efficient
administration.

53a
Appendix D
Plan § 6.14(e) (emphasis added). And neither H.B. 3158 nor
the Revised Addendum actually takes Plaintiffs’ DROP
funds. Instead, the provisions merely alter the timing of
when Plaintiffs receive their funds. Plaintiffs will receive
all of their DROP funds, including previously credited
interest plus additional interest at federal treasury
rates. See H.B. 3158 § 1.42(e-2); see also June 8, 2017
Amendment to DROP Policy Addendum. The actuarial
value of Plaintiffs’ DROP funds thus remains unchanged.
As a result, Plaintiffs cannot demonstrate that they have
been deprived of their interests in the DROP funds in a
constitutional sense. Plaintiffs’ failure is fatal to both their
due process and takings claims.1
B. Plaintiffs Have Failed to State a Procedural Due
Process Claim
Plaintiffs argue that H.B. 3158 and the Revised
1. Whether Plaintiffs challenge the Original Addendum in
addition to H.B. 3158 and the Revised Addendum is unclear. For
example, Plaintiffs’ Amended Complaint asserts that the Original
Addendum “deprived Plaintiffs of access to their DROP funds,
without any meaningful opportunity to be heard[.]” Am. Compl.
¶ 35 [67]. But in their response to the Board’s motion to dismiss,
Plaintiffs apparently view the Original Addendum favorably,
arguing that “the arbitrariness of the [Revised Addendum] is
demonstrated by its deviation from the [Original] Addendum
adopted by the Board in January 2017.” Pls.’ Resp. 18 [86]. Because
the Original Addendum is no longer in place, the issue appears
to be moot. And whether or not Plaintiffs challenge the Original
Addendum, Plaintiffs’ failure to allege a deprivation of their DROP
funds – as a result of either the Original or the Revised Addendum
– necessarily dooms both their due process and takings claims.

54a
Appendix D
Addendum deprive them of their property without due
process of law. Even if Plaintiffs could demonstrate that
they were deprived of their interests in the DROP funds
– which they have not – Plaintiffs have failed to show
that (1) they were entitled to due process protections and
(2) even if they were entitled to procedural protections, the
procedures the Board afforded Plaintiffs were insufficient.
“Procedural due process imposes constraints on
governmental decisions [that] deprive individuals of
‘liberty’ or ‘property’ interests within the meaning of the
Due Process Clause of the . . . Fourteenth Amendment.”
Mathews v. Eldridge, 424 U.S. 319, 332 (1976). The
Supreme Court “consistently has held that some form of
hearing is required before an individual is finally deprived
of a property interest.” Id. at 333. However, “[w]here a rule
. . . applies to more than a few people, it is impracticable
that everyone should have a direct voice in its adoption,” so
legislative bodies may implement general policies without
providing notice-and-hearing procedures to all affected
parties. Bi-Metallic Inv. Co. v. State Bd. of Equalization,
239 U.S. 441, 445 (1915). As a result, “it is well established
law that once an action is characterized as legislative,
procedural due process requirements do not apply.”
Jackson Court Condos., Inc. v. City of New Orleans, 874
F.2d 1070, 1074 (5th Cir. 1989). This is because when a
legislative action “affects a general class of persons, those
persons have all received procedural due process – the
legislative process.” Cnty. Line Joint Venture v. City of
Grand Prairie, Tex., 839 F.2d 1142, 1144 (5th Cir. 1988).

55a
Appendix D
Here, the Texas Legislature’s passage of H.B. 3158
was unquestionably a legislative act. As a result, Plaintiffs
were not entitled to individualized notice and hearing
procedures with respect to the bill. See Jackson, 874 F.2d
at 1074. And the Revised Addendum merely amends the
Plan to comply with H.B. 3158; it imposes no additional
burdens on Plaintiffs. Because H.B. 3158 was a legislative
action, and the Revised Addendum merely implements
H.B. 3158, Plaintiffs “all received procedural due process
– the legislative process.” Cnty. Line, 839 F.2d at 1144.
Further, even if Plaintiffs were entitled to such
additional procedures, Plaintiffs have failed to show that
the procedures the Board afforded them were insufficient.2
Plaintiffs do not allege that they were denied notice
of and an opportunity to participate in the legislative
proceedings that resulted in H.B. 3158. And the Board
adopted both the Original and Revised Addenda at
duly noticed public meetings at which Plaintiffs had an
opportunity to be heard. This is all procedural due process
requires. See, e.g., Marco Outdoor Adver., Inc. v. Reg.
Transit Auth., 489 F.3d 669, 673 (5th Cir. 2007) (“The
‘root requirement’ of due process is ‘that an individual be
given an opportunity for a hearing before he is deprived of
any significant property interest.’” (emphasis in original)
(quoting McKesson Corp. v. Div. of Alcoholic Beverages
2. Plaintiffs do not attempt to address what additional
or substitute procedures would have satisfied due process
requirements here. Instead, they assert only that the Board
“took away [Plaintiffs’] property rights without due process being
afforded to Plaintiffs.” Am. Compl. ¶ 29 [67].

56a
Appendix D
and Tobacco, Dept. of Bus. Regulation of Fla., 496 U.S.
18, 37 (1990)). The Court thus holds that Plaintiffs have
failed to state a Fourteenth Amendment procedural due
process claim. 3
C. Plaintiffs Have Failed to State a Substantive Due
Process Claim
Plaintiffs next assert that H.B. 3158 and the Revised
Addendum violate their substantive due process rights.
As an initial matter, the substantive due process doctrine
“prohibits only the most egregious official conduct . . . and
will rarely come into play.” Jordan v. Fisher, 823 F.3d 805,
812–13 (5th Cir. 2016) (internal quotation marks omitted).
Substantive due process protections “have for the most
part been accorded to matters relating to marriage,
family, procreation, and the right to bodily integrity.”
Albright v. Oliver, 510 U.S. 266, 272 (1994) (citations
omitted). Where substantive due process claims do not
implicate a fundamental right, the Fifth Circuit applies
rational basis review to the challenged actions. Reyes v.
NTTA, 861 F.3d 558, 561 (5th Cir. 2017). “[G]overnmental
actions involving social and economic regulation that do
not interfere with the exercise of fundamental rights
. . . are presumed to be constitutionally valid.” Yur-Mar,
L.L.C. v. Jefferson Par. Council, 451 Fed. App’x 397, 401
(5th Cir. 2011) (citations omitted). Plaintiffs do not allege
that either H.B. 3158 or the Revised Addendum implicates
3. In fact, Plaintiffs appear to concede that they have not
stated a procedural due process claim. Plaintiffs failed to address
the Board’s procedural due process arguments in their response
to the Board’s motion to dismiss.

57a
Appendix D
any fundamental right. Indeed, they appear to recognize
that rational basis review applies. See Pls.’ Resp. at 18
(discussing rational basis test). Because the challenged
regulations are economic in nature and implicate no
fundamental rights, the Court will review them under the
“notoriously deferential” rational basis standard. Reyes,
861 F.3d at 561–62.
To survive rational basis review, the government’s
actions must be “rationally related to a legitimate
government interest.” Id. at 561 (citing FM Props. Op.
Co. v. City of Austin, 93 F.3d 167, 174 (5th Cir. 1996)). The
government’s asserted interest “need not be the actual or
proven interest, as long as there is a connection between
the policy and a ‘conceivable’ interest.” Reyes, 861 F.3d at
63 (quoting FM Props., 93 F.3d at 175).
Here, the Board’s asserted interests include improving
the Pension System’s projected solvency and preserving
its ability to provide benefits to the approximately 9,300
police officers and firefighters it serves. Given that the
Pension System was projected to become insolvent within
the next decade if the Texas Legislature and the Board
did not act, the Board’s asserted interests were certainly
legitimate. And H.B. 3158 and the Revised Addendum
are at the very least rationally related to these interests.
Among other things, they limit the Pension System’s
unrestricted cash outflows, reduce its unfunded liability,
and increase its funded ratio. Because the challenged
actions are at least rationally related to the Board’s
legitimate interests, Plaintiffs have failed to state a
substantive due process claim upon which relief can be
granted. See Reyes, 861 F.3d at 561.

58a
Appendix D
IV. THE COURT GRANTS THE BOARD’S MOTION
TO DISMISS PLAINTIFFS’ TAKINGS CLAIM
Plaintiffs next assert that H.B. 3158 and the Revised
Addendum deprive them of their DROP funds without just
compensation in violation of the Fifth Amendment Takings
Clause. As set forth in section III(A) supra, Plaintiffs have
not shown that they were deprived of their DROP funds
so as to trigger any constitutional protections. But even if
Plaintiffs had sufficiently alleged a deprivation, the Court
holds that Plaintiffs have failed to state a takings claim
for other, independent reasons.4
4. The Board asserts that the Fifth Circuit’s recent decision
in Van Houten means that legislative changes to pension benefits
categorically “cannot be the basis of a . . . takings clause challenge.”
827 F.3d at 540. But Van Houten addressed only prospective
changes to unvested pension benefits. The Van Houten court
did note that any contractual right to pension benefits “is a right
expressly ‘made subject to the reserved power of the Legislature to
amend, modify, or repeal the law upon which the pension system is
erected.’” 827 F.3d at 539–40 (quoting City of Dallas v. Trammell,
101 S.W.2d 1009, 1014 (Tex. 1937)). But it also recognized that the
Texas Legislature passed Article XVI, Section 66 of the Texas
Constitution (“Section 66”) specifically to overturn Trammell in the
context of vested pension benefits. Van Houten, 827 F.3d at 537–38
(“As we have interpreted it, Section 66 reverses the core unfairness
of the Trammell decision by ensuring that earned benefits cannot be
reduced.” (emphasis added)). Indeed, the Texas Supreme Court case
the Fifth Circuit referenced in its takings discussion specifically
stated that its analysis might have differed had Section 66 been at
issue. See Klumb v. Houston Mun. Employees Pension Sys., 458
S.W.3d 1, 16 (Tex. 2015). But because the City of Houston had opted
out of Section 66, the issue was not presented. Id. Because Plaintiffs
have vested interests in their DROP funds, Van Houten does not
categorically bar their takings claim.

59a
Appendix D
A. Legal Standard
“The Takings Clause of the Fifth Amendment,
made applicable to the States through the Fourteenth
[Amendment]. . . provides that private property shall
not ‘be taken for public use, without just compensation.’”
Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 536 (2005)
(citations omitted). “The paradigmatic taking requiring
just compensation is a direct government appropriation
or physical invasion of private property.” Id. at 537
(citations omitted). This is known as a per se taking. Id.
at 538. However, the Supreme Court has “recognized that
government regulation of private property may, in some
instances, be so onerous that its effect is tantamount to a
direct appropriation or ouster – and that such ‘regulatory
takings’ may be compensable under the Fifth Amendment.”
Id. In determining “how far is ‘too far,’” however, courts
“must remain cognizant that ‘government regulation –
by definition – involves the adjustment of rights for the
public good.’” Id. (quoting Andrus v. Allard, 444 U.S. 51,
65 (1979)). The Supreme Court has “recognized, in a wide
variety of contexts, that government may execute laws
or programs that adversely affect recognized economic
values.” Penn Cent. Transp. Co. v. New York City, 438
U.S. 104, 124 (1978). Indeed, “[g]overnment hardly could
go on if to some extent values incident to property could
not be diminished without paying for every such change
in the general law.” Lingle, 544 U.S. at 538 (quoting Pa.
Coal Co. v. Mahon, 260 U.S. 393, 413 (1922)).
The Supreme Court has established two “relatively
narrow” categories of government action that generally

60a
Appendix D
will qualify as per se takings. Lingle, 544 U.S. at 538.
First, “where government requires an owner to suffer
a permanent physical invasion of her property –however
minor – it must provide just compensation.” Id. (citing
Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S.
419 (1982)). Second, where government action “completely
deprive[s] an owner of ‘all economically beneficial use[]’ of
her property,” a “total regulatory taking” has occurred
and the government must pay just compensation. Lingle,
544 U.S. at 538 (emphasis in original) (quoting Lucas v.
S.C. Coastal Council, 505 U.S. 1003, 1019, 1026 (1992)).
Outside of these categories, courts examine regulatory
takings challenges under the standards set forth in Penn
Central. Lingle, 544 U.S. at 538. The Penn Central
Court acknowledged that it had been “unable to develop
any ‘set formula’” for evaluating regulatory takings
claims, but it did identify “‘several factors that have
particular significance.’” Id. (quoting Penn Cent., 438
U.S. at 124). Penn Central focused on three factors: (1)
“[t]he economic impact of the regulation on the claimant,”
(2) “the extent to which the regulation has interfered
with distinct investment-backed expectations,” and (3)
“the ‘character of the governmental action’ – for instance
whether it amounts to a physical invasion or instead
merely affects property interests through ‘some public
program adjusting the benefits and burdens of economic
life to promote the common good.’” Lingle, 544 U.S. at
538–39 (quoting Penn Cent., 438 U.S. at 124).

61a
Appendix D
B. Plaintiffs Have Failed to State a Per Se Takings
Claim
Plaintiffs argue that the Board, through H.B. 3158 and
the challenged Addenda, has “unlawfully seized the funds
held in Plaintiffs’ DROP accounts, denying Plaintiffs’
and the class members’ ability to direct how and when
such funds are distributed.” Pls.’ Resp. 7 [86]. Plaintiffs
thus appear to be asserting a per se takings claim. See
Lingle, 544 U.S. at 537–38. Plaintiffs analogize their
asserted deprivation to the takings at issue in Loretto,
458 U.S. 419, and Horne v. Department of Agriculture,
135 S. Ct. 2419 (2015). But each of those cases involved
an actual physical invasion or deprivation of property. In
Loretto, the Supreme Court held that a state law requiring
landlords to permit the direct physical attachment of
permanent cable installations on their property effected
a per se taking. 458 U.S. at 438. And in Horne, the Court
held that a per se taking occurred when the government
required plaintiff raisin growers to transfer actual raisins,
along with title to the raisins, to the government. 135 S.
Ct. at 2428. Plaintiffs have not alleged any such physical
invasion or deprivation here. As a result, Plaintiffs have
failed to state a per se takings claim.
C. Plaintiffs Have Failed to State a Regulatory
Takings Claim
Plaintiffs have also failed to state a regulatory takings
claim. 5 “A regulatory restriction on use that does not
5. Whether Plaintiffs intend to assert a regulatory takings
claim is unclear. For the sake of completeness, the Court examines

62a
Appendix D
entirely deprive an owner of property rights may not be a
taking under Penn Central,” 438 U.S. 104. Horne, 135 S.
Ct. at 2429. Thus, the Court analyzes regulatory takings
claims under the factors set forth in Penn Central to
determine whether a compensable taking has occurred.
Here, the Court holds that Plaintiffs have failed to
sufficiently allege that H.B. 3158 and the Addenda effect
a regulatory taking of their DROP funds.
First, the Court examines the economic impact of
the challenged regulations. See Penn Cent., 438 U.S. at
124. The economic impact of H.B. 3158 and the Addenda,
while not wholly inconsequential, is not so severe as to
constitute a regulatory taking of Plaintiffs’ property.
H.B. 3158 and the Addenda do not deprive Plaintiffs of
their DROP funds. Instead, they merely alter the timing
for Plaintiffs to receive their funds. And Plaintiffs may
request DROP withdrawals through hardship procedures
established by the Board, further mitigating the economic
impact of the challenged provisions. A regulation does not
effect a taking solely because the property owner cannot
make “the most beneficial use of the property.” Id. at 125.
Although Plaintiffs are no longer able to withdraw their
DROP funds at will, the amount of the funds has not been
reduced. Plaintiffs will receive the actuarial equivalent
of their DROP funds via the annuitization provision. The
economic impact of H.B. 3158 and the Addenda thus weighs
against the conclusion that a regulatory taking occurred.

Plaintiffs’ takings claim under both the per se and regulatory
frameworks.

63a
Appendix D
Second, the Court examines the extent to which
the challenged regulations interfere with the parties’
distinct investment-backed expectations. Id. at 124.
Plaintiffs imply that they participated in DROP under the
assumption that, once they were eligible to access their
DROP funds, they could continue to withdraw the funds
at will. But the Plan itself authorized the Board to adjust
DROP distribution policies as necessary for efficient
Plan administration. See supra Section I. The Plan also
authorized members themselves to amend the Plan if
certain requirements were satisfied. Plan § 8.01. And, as
stated above, Plaintiffs’ DROP funds have not actually
decreased; instead, Plaintiffs will receive the annuitized
funds over time. “No person has a vested interest in any
rule of law, entitling him to insist that it shall remain
unchanged for his benefit.” Custom Seal, Inc. v. DuroLast Roofing, Inc., No. 6:11-CV-122, 2012 WL 12930886,
at *5 (E.D. Tex. Sept. 20, 2012) (quoting N.Y. Cent. R. Co.
v. White, 243 U.S. 188, 198 (1917)). Indeed, “[i]f every time
a man relied on existing law in arranging his affairs, he
were made secure against any change in legal rules, the
whole body of our law would be ossified forever.” Landgraf
v. USI Film Prod., 511 U.S. 244, 270 n.24 (1994) (quoting
L. Fuller, The Morality of Law 60 (1964)). The Court thus
holds that the second Penn Central factor also weighs
against holding that a regulatory taking occurred.
Finally, the Court examines the “character of the
governmental action.” Penn Cent., 438 U.S. at 124. The
Supreme Court has stated that “a ‘taking’ may more
readily be found when the interference with property can
be characterized as a physical invasion by government . . .
than when interference arises from some public program

64a
Appendix D
adjusting the benefits and burdens of economic life to
promote the common good.” Id. (citations omitted). Here,
the Board has not “physically invade[d] or permanently
appropriate[d] any of [Plaintiffs’] assets for its own use.”
Connolly v. Pension Ben. Guar. Corp., 475 U.S. 211,
225 (1986). Instead, it merely has changed the way that
DROP funds will be distributed going forward. Such an
“adjustment to the benefits and burdens” of the Pension
System’s members does not effect a regulatory taking
of Plaintiff’s DROP funds. After examining the Penn
Central factors in the particular circumstances of this
case, the Court thus holds that Plaintiffs have failed to
state a regulatory takings claim.
V. THE COURT GRANTS THE BOARD’S MOTION
TO DISMISS PLAINTIFFS’ CLAIM FOR
DECLARATORY JUDGMENT
Plaintiffs seek a declaratory judgment that the
Board’s implementation of H.B. 3158 violates the United
States and Texas Constitutions because it deprives them
of their vested property rights in the DROP funds. As
set forth above, Plaintiffs have failed to sufficiently allege
that such a deprivation occurred. The Court thus grants
the Board’s motion to dismiss Plaintiffs’ declaratory
judgment claim.
VI. H.B. 3158 AND THE REVISED ADDENDUM DO
NOT VIOLATE THE TEXAS CONSTITUTION
Finally, Plaintiffs argue that H.B. 3158 and the
Revised Addendum unlawfully impair their interests in

65a
Appendix D
the DROP funds in violation of the Texas Constitution.6 In
2003, the Texas Legislature added Article XVI, section 66
(“Section 66”) to the Texas Constitution. Section 66 reads:
(d) On or after the effective date of this section,
a change in service or disability retirement
benefits or death benefits of a retirement
system may not reduce or otherwise impair
benefits accrued by a person if the person:
(1) could have terminated employment
or has terminated employment before
the effective date of the change; and
(2) would have been elig ible for
those benefits, without accumulating
additional service under the retirement
system, on any date on or after the
effective date of the change had the
change not occurred.
(e) Benefits granted to a retiree or other
annuitant before the effective date of this
section and in effect on that date may not be
reduced or otherwise impaired.
Tex. Const. A rt. XVI § 66 (emphasis added).

6. Plaintiffs do not formally assert an independent Section
66 claim, but the Court considers their Section 66 argument for
the sake of completeness.

66a
Appendix D
The history of Section 66 demonstrates that the
provision concerns changes in vested benefits themselves
– not changes in the timing of when pensioners receive
them. In City of Dallas v. Trammell, the Texas Supreme
Court held that a retiree’s interest in his accrued
monthly pension payments was subordinate to the
Texas Legislature’s right to reduce the amount of his
accrued benefits thereunder. 101 S.W.2d 1009, 1011, 1013
(Tex. 1937). The Texas Legislature intended Section
66 to reverse Trammell by prohibiting the reduction
or impairment of such benefits. Two recent decisions
construing Section 66 illustrate this point.
The first decision is Van Houten v. City of Fort Worth,
a case involving the city of Fort Worth’s police officers and
firefighters’ pension fund. 827 F.3d 530 (2016). The city
enacted pension reforms that prospectively decreased
(1) the rate at which future retirement benefits accrued
and (2) cost-of-living adjustments to the plan for current
employees. Id. at 533. A group of Fort Worth police officers
and firefighters sued the city, alleging that the pension
reforms violated Section 66. Id. at 532. The district court
held that the pension reforms complied with Section 66
and granted summary judgment for the city. Id. at 533.
The Fifth Circuit affirmed. Id. at 532. It reasoned that
(1) Section 66(d) “prohibits the impairment of accrued
benefits for vested employees”; (2) “[t]here is an understood
difference between the concepts of benefit accrual and
vesting”; and (3) “[t]his understanding essentially resolves
the case.” Id. at 534. (emphases in original). The Court
then noted that:

67a
Appendix D
When it comes to public pension protection,
Texas is known to be an outlier. In 1937, the
Texas Supreme Court decided [Trammell] and
held that pensioners’ rights to accrued benefits
were subject to the legislative power of the state
“to amend, modify, or repeal the law upon which
the pension system is erected.” [101 S.W.2d at
1014]. The ruling meant that C.W. Trammell,
a retired Dallas police officer whose monthly
pension was cut from $183.33 to $72.16, had no
recourse. While other states enacted laws to
protect public pensions from similar cuts, Texas
held its course – until the enactment of Section
66. As one Texas appellate court put it, Section
66 “was proposed and adopted specifically to
change the result of the Trammell decision,
albeit 70 years later.” Davidson v. McLennan
Cty. Appraisal Dist., No. 10-11-00061- CV, 2012
WL 3799149, at *5 (Tex. App. – Waco Aug. 30,
2012, pet. denied) (mem. op.).
As we have interpreted it, Section 66 reverses
the core unfairness of the Trammell decision
by ensuring that earned benefits cannot be
reduced. By going no further, our interpretation
of Section 66 stays true to Texas’ long-held
flexible approach permitting municipalities to
revise their pension plans in light of changing
economic conditions.
Van Houten, 827 F.3d at 537–38. Van Houten thus stands
for the propositions that Section 66 (1) reverses the core

68a
Appendix D
holding in Trammell and (2) permits prospective changes
to the public pension plans it covers. Id. at 538. But Van
Houten leaves open the question at issue here: that is, what
constitutes an “impairment” under Section 66.
The second recent case construing Section 66 is
Eddington v. Dallas Police and Fire Pension System,
508 S.W.3d 774 (Tex. App. – Dallas 2016, pet. filed).
Eddington is a Dallas Court of Appeals case arising from
the Board’s decision to amend the Plan to reduce future
DROP account interest rates and require participants
to accelerate their withdrawals of DROP funds. Id. A
group of current and retired City police officers sued
the Pension System and the Board’s chair, asserting
that the amendments violated Section 66’s prohibition
on reducing or impairing retirement benefits. Id. at 775.
The trial court ruled that the challenged amendments
did not violate Section 66 and dismissed the plaintiffs’
claims. Id. The Dallas Court of Appeals affirmed. Id. at
776. At the outset, the court noted that the parties did “not
dispute that the Texas Legislature’s passage of Section
66 was intended to reverse the result of Trammell.” Id. at
784. Then, assuming without deciding that DROP was a
“service retirement benefit” for Section 66 purposes, the
court held that the DROP interest rate was “not among
the ‘benefits’ protected by Section 66.” Id. at 788 (citing
Van Houten, 827 F.3d at 535). The court also rejected
the plaintiffs’ argument that the accelerated DROP
withdrawal requirements impaired or reduced their
DROP benefits. Eddington, 508 S.W.3d at 789. The court
noted that, other than being prevented from benefitting
from the DROP interest rate, the plaintiffs had not shown

69a
Appendix D
any reduction or impairment in their DROP benefits as
a result of the accelerated withdrawal requirement. Id.
Both Van Houten and Eddington demonstrate that
the Texas Legislature intended Section 66 to reverse
Trammell. And Trammell approved reductions in the
amount of pension benefits – not changes in the timing
by which pensioners might receive them. 101 S.W.2d at
1013. Thus, Section 66 can be reasonably interpreted
as protecting the value, not the distribution timing, of
covered pension benefits. But Plaintiffs now contend
that, by changing the timing of their receipt of the DROP
benefits, H.B. 3158 and the Revised Addendum impair the
benefits in violation of Section 66. The Court disagrees.
As an initial matter, the parties do not dispute that
Plaintiffs have a vested interest in their accrued DROP
benefits. But that alone is insufficient to find a violation
of Section 66. To violate Section 66, the challenged Plan
amendments must either reduce or impair the DROP
benefits. Plaintiffs do not contend that H.B. 3158 and
the Revised Addendum reduce the DROP benefits. Nor
could they: both H.B. 3158 and the Revised Addendum
leave the value of the DROP benefits untouched. Instead,
Plaintiffs argue that the challenged amendments impair
the DROP benefits.
According to Black’s Law Dictionary, to “impair” is
“to diminish the value of (property or a property right).”
Black’s Law Dictionary 869 (10th ed. 2014). Thus, while
a “reduction” would mean a direct decrease in the DROP

70a
Appendix D
benefits themselves, an “impairment” encompasses any
other action that might diminish the benefits’ value. For
example, altering the timing for DROP participants
to receive their benefits without permitting interest to
accrue on the funds such that the net present value of
the benefits actually decreased would likely qualify as
an impairment under Section 66. But H.B. 3158 and the
Revised Addendum effect no such impairment. Plaintiffs
will receive every dollar of their DROP funds, and the
funds will accrue interest at the T-Bill rate such that
their net present value will remain unchanged. And while
the T-Bill rate is lower than the rate at which the funds
originally accrued interest, Section 66 does not create a
right to future interest rates. See Eddington, 508 S.W.3d
at 788 (“the DROP interest rate is not among the ‘benefits’
protected by Section 66.” (citing Van Houten, 827 F.3d
at 535)). Because H.B. 3158 and the Revised Addendum
change only the timing of DROP distributions, Plaintiffs
have failed to show that they reduce or impair the DROP
benefits in violation of Section 66.
The Texas Legislative Council’s7 reading of Section
66 supports this view. The Council interpreted Section
66 to mean that “any change made to certain benefits
provided by certain retirement systems cannot reduce
7. The Texas Legislative Council is a “nonpartisan legislative
agency that provides bill drafting, computing, research, publishing,
and document distribution services to the Texas Legislature
and the other legislative agencies.” TEXAS LEGISLATIVE
COUNCIL, http://www.tlc.state.tx.us/ (last visited March 7, 2018).
The council also serves as an information resource for Texas
agencies and citizens. Id.

71a
Appendix D
benefits that a person was entitled to receive before
the date of the change.” Tex. Leg. Council, Condensed
Analysis of Proposed Const. Amendments, September
13, 2003 Election at 99 (2003). It stated that, “[u]nder the
amendment, any reduction in the retirement or death
benefits that the retirement systems provide cannot be
applied retroactively to benefits that a person has accrued
or is entitled to receive before the date the reduction takes
effect.” Id. Nowhere did the Council refer to changes in
distribution timing for accrued pension benefits.
Gi ven S e c t ion 6 6 ’s h i st or y a nd sub se quent
interpretation, it stands to reason that the Texas
Legislature intended Section 66 to prohibit changes that
would reduce or otherwise impair retirees’ benefits – not
the timing of when they can receive them. See Tex. Const.
A rt. XVI § 66. H.B. 3158 and the Revised Addendum
effect no such reduction or impairment. They merely
alter the timing for DROP participants to receive the
unimpaired funds going forward. The Court believes the
Texas Supreme Court is unlikely to hold that a change
in distribution timing that leaves the underlying funds
untouched reduces or impairs those funds within the
meaning of Section 66.
CONCLUSION
The Court grants the Board’s motion to dismiss
Plaintiffs’ first amended complaint [75]. Because Plaintiffs
have not requested leave to amend, the Court grants the
Board’s motion with prejudice. The Court also grants the

72a
Appendix D
Board’s motion to strike Plaintiffs’ surreply to the Board’s
motion to dismiss [89]. 8
Signed March 14, 2018.
/s/
David C. Godbey
United States District Judge

8. The Court has reviewed Plaintiffs’ surreply and
determined that, even if the Court denied the Board’s motion to
strike, the surreply would not have affected the Court’s holding
in this case.

73a
AppendixOF
E REHEARING OF
APPENDIX E —DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT, FILED MAY 22, 2020
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 18-10423
LADONNA DEGAN, RIC TERRONES, JOHN
MCGUIRE; REED HIGGINS, MIKE GURLEY,
LARRY EDDINGTON, STEVEN MCBRIDE,
Plaintiffs-Appellants,
v.
THE BOARD OF TRUSTEES OF THE DALLAS
POLICE AND FIRE PENSION SYSTEM,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion: April 27, 2020, 5 Cir., 		
F.3d 			
)

, 		

Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.

74a
Appendix E
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition
for Panel Rehearing is DENIED. No member of
the panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.

(

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5 TH
CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.

)

E N T E R E D F OR T H E
COURT: (Dated 5/22/20)
/s/ Catharina Haynes
UNITED STATES
CIRCUIT JUDGE

75a
Appendix LANGUAGE
F
APPENDIX F — QUOTED
FROM
DALLAS PENSION STATUTE AND FROM
DALLAS POLICE AND FIRE PENSION PLAN
Relevant language from the Dallas Pension Statute
as amended in 2017 by House Bill 3158
Except as provided by Subsections (e-1) and (l) of this
section, the balance in the DROP account of a member who
terminated from active service on or before September
1, 2017, or who terminates from active service shall be
distributed to the member in the form of an annuity,
payable either monthly or annually at the election of
the member, by annuitizing the amount credited to the
DROP account over the life expectancy of the member
as of the date of the annuitization using mortality tables
recommended by the pension system’s qualified actuary.
The annuity shall be distributed beginning as promptly as
administratively feasible after the later of, as applicable:
(1) the date the member retires and is granted
a retirement pension; or
(2) September 1, 2017.
Tex. Rev. Civ. Stat. art. 6243a-1, sec. 6.14 (e) (Vernon 2017).

76a
Appendix F
Relevant language to the Dallas Police and Fire
Pension Plan as amended in 2017 pursuant to the
authority provided by House Bill 3158
Effective as of June 8, 2017, all DROP withdrawal
requests that are on file with DPFP, including any DROP
withdrawal requests that were submitted pursuant
to Section 4 and 5 of the Addendum as in effect prior
to June 8, 2017, shall be null and void except for those
requests filed pursuant to Section 6 in connection with an
unforeseeable emergency or for purposes of a minimum
annual distribution elected under Section 7. All DROP
withdrawal elections made under Sections 6 and 7 will
remain in place for all subsequent DROP distributions
under this Addendum until revoked by the distributee in
writing.

